<html>
<title> - H.R. 2547, TO PROVIDE FOR THE CONVEYANCE OF LAND INTERESTS TO CHUGACH ALASKA CORPORATION TO FULFILL THE INTENT, PURPOSE, AND PROMISE OF THE ALASKA NATIVE CLAIMS SETTLEMENT ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 H.R. 2547, TO PROVIDE FOR THE CONVEYANCE OF LAND INTERESTS TO CHUGACH 
 ALASKA CORPORATION TO FULFILL THE INTENT, PURPOSE, AND PROMISE OF THE 
                  ALASKA NATIVE CLAIMS SETTLEMENT ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     JULY 28, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-50

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
60-581                     WASHINGTON : 1999



                                 ______
                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 28, 1999.......................................     1

Statement of Members:
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................    22

Statement of Witnesses:
    Blatchford, Edgar, Chugach Alaska Corporation, Anchorage, 
      Alaska.....................................................    23
        Prepared statement of....................................    26
    Buretta, Sheri, Chairman of the Board, Chugach Alaska 
      Corporation, Anchorage, Alaska.............................    29
        Prepared statement of....................................    33
    Lankard, Dune, Eyak Rainforest Preservation Fund, Cordova, 
      Alaska.....................................................    36
        Prepared statement of....................................    38
    Stewart, Ron, Deputy Chief for Programs and Legislation, U.S. 
      Forest Service, U.S. Department of Agriculture, accompanied 
      by James Snow Office of General Counsel, U.S. Department of 
      Agriculture, and Paul Kirton, Solictor's Office, U.S. 
      Department of the Interior.................................    68

Additional material supplied:
    Alaska National Interest Lands Conservation Act, NEPA........    77
    Chugach Alaska Corp., Summary................................    78
    National Wildlife Federation, prepared statement of..........    92
    Text of H.R. 2547............................................     2

 
 H.R. 2547, TO PROVIDE FOR THE CONVEYANCE OF LAND INTERESTS TO CHUGACH 
 ALASKA CORPORATION TO FULFILL THE INTENT, PURPOSE, AND PROMISE OF THE 
                  ALASKA NATIVE CLAIMS SETTLEMENT ACT

                              ----------                              


                        WEDNESDAY, JULY 28, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11 a.m. in Room 
1324, Longworth House Office Building, Hon. Don Young [chairman 
of the Committee] presiding.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    The Chairman. The Committee will come to order.
    The Committee is meeting today, and I want to thank those 
Members here, and most Members decided to go out because of our 
deceased colleague in California, and I do thank you for being 
here to hear testimony on H.R. 2547, the Chugach Alaska Native 
Settlement Claims Act.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.001
    
    [GRAPHIC] [TIFF OMITTED] T0581.002
    
    [GRAPHIC] [TIFF OMITTED] T0581.003
    
    [GRAPHIC] [TIFF OMITTED] T0581.004
    
    [GRAPHIC] [TIFF OMITTED] T0581.005
    
    [GRAPHIC] [TIFF OMITTED] T0581.006
    
    [GRAPHIC] [TIFF OMITTED] T0581.007
    
    [GRAPHIC] [TIFF OMITTED] T0581.008
    
    [GRAPHIC] [TIFF OMITTED] T0581.009
    
    [GRAPHIC] [TIFF OMITTED] T0581.010
    
    [GRAPHIC] [TIFF OMITTED] T0581.011
    
    [GRAPHIC] [TIFF OMITTED] T0581.012
    
    [GRAPHIC] [TIFF OMITTED] T0581.013
    
    [GRAPHIC] [TIFF OMITTED] T0581.014
    
    [GRAPHIC] [TIFF OMITTED] T0581.015
    
    [GRAPHIC] [TIFF OMITTED] T0581.016
    
    [GRAPHIC] [TIFF OMITTED] T0581.017
    
    [GRAPHIC] [TIFF OMITTED] T0581.018
    
    [GRAPHIC] [TIFF OMITTED] T0581.019
    
    The Chairman. Under rule 4(g) of the Committee rules, any 
oral opening statements are limited to the Chairman and Ranking 
Minority Member, and other statements of Members can be 
included in the record under unanimous consent.
    H.R. 2547 fulfills the purpose, promise and intent of the 
Alaska Native Claims Settlement Act for a group of Alaska 
Natives in the Chugach region. They are represented by the 
Chugach Alaska Corporation, the vehicle that manages the lands 
transferred to native ownership under the settlement Act.
    I always feel a little awkward saying these lands were 
transferred to the Natives when, in fact, the lands were theirs 
to begin with.
    The legislation is divided into three titles. Title I fully 
and finally eliminates the terms of a 1982 agreement between 
the United States and the Chugach Native people which the 
government promised, but has failed to grant, an easement 
providing access to property they own called the Carbon 
Mountain tract. This agreement in turn was supposed to 
implement the 1971 Native Claims Act.
    Title II fulfills the intent of the Congress that Chugach 
receive possession of historical sites and cemeteries within 
its Native region. These sites have been the target of a 
zealous Trustee Council on a land-buying spree.
    And title III requires the government to coordinate the 
forest land management plan with Native corporations whose 
lands are intermingled with national forest lands.
    Twenty-eight years ago Congress extinguished the land 
claims of Alaska Natives. This cleared title to millions of 
acres of public land in Alaska and enabled the government to 
effect the d(2) withdrawals, which then led to all the future 
parks, wildlife refuges and wilderness areas.
    But the purpose of the Native Claims Act was not to turn 
Alaska into a national park, it was meant to return a fraction 
of the lands the Federal Government took from our first 
Americans.
    However, in the Chugach region, the Native people have not 
obtained what was promised. They were promised access to their 
Carbon Mountain lands, fee ownership of historic cemetery 
sites, and maximum participation in the management of public 
land that affects them, but these promises were either broken 
or left to wither. Even now while Chugach waits for a 
commitment to be honored, the government is planning new, 
unauthorized wilderness and wild and scenic river designations 
in the Chugach National Forest that will effectively impair the 
Natives' rights.
    I wish Members would think about it. The administration 
could have granted the easement years ago, but instead devoted 
its attention to managing forest lands in a way that deprives 
the Natives of the promises, intent and purposes of ANCSA. What 
does that tell us about the government's intentions?
    I am especially perturbed with this administration because 
it assured this Committee that easement would be issued by a 
time-certain deadline. Chugach met every obligation under the 
1982 agreement, but no acceptable easement has been granted.
    I believe this administration misrepresented its intentions 
to this Committee last year. It has no desire of issuing an 
easement. The Chugach people are tired of lip service, so I am 
giving them H.R. 2547.
    I should note that my frustration is not with those 
dedicated Forest Service employees on the ground in Alaska. In 
fact, the employees of the Forest Service in Alaska have worked 
very hard to accomplish this goal. The problem is here in 
Washington.
    There is no excuse for further delays. The administration 
has to grant the easement today, it is that simple. I could go 
on, but there are more issues concerning the Native Claims Act 
and the Chugach Natives, and we will leave that to our 
witnesses to explain.
    I am rearranging the order of witnesses today because the 
administration again failed to submit its testimony in an 
acceptable time frame. This is a habit that OMB can't seem to 
break. Hence, I am disallowing the submission of administration 
testimony for the record. However, the administration witness 
will remain present in this room and prepare for questions at 
the witness table after the other panel testifies and answers 
questions.
    Let me remind the witnesses under our Committee rules they 
are limited to oral statements for 5 minutes, but their entire 
statement will appear in the record.
    [The prepared statement of Mr. Young follows:]

  STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE 
                            STATE OF ALASKA

    H.R. 2547 fulfills the purpose, promise and intent of the 
Alaska Native Claims Settlement Act for a group of Alaska 
Natives in the Chugach Region. They are represented by the 
Chugach Alaska Corporation, the vehicle that manages the lands 
transferred to Native ownership under the Settlement Act.
    I always feel a little awkward saying these lands were 
``transferred'' to the Natives when, in fact, the lands were 
theirs to begin with!
    The legislation is divided into three titles. Title I fully 
and finally . . . implements the terms of a 1982 agreement 
between the United States and the Chugach Native people in 
which the government promised, but has failed to grant, an 
easement providing access to property they own, called the 
Carbon Mountain tract.
    This agreement in turn was supposed to implement the 1971 
Native Claims Act.
    Title II fulfills the intent of Congress that Chugach 
receive possession of historical sites and cemeteries within 
its Native Region. These sites have been the target of a 
zealous Trustee Council on a Native land-buying spree.
    And Title III requires the government to coordinate its 
forest land management plan with Native corporations whose 
lands are intermingled with national forest lands.
    Twenty-eight years ago Congress extinguished the land 
claims of Alaska Natives. This cleared title to millions of 
acres of public land in Alaska and enabled the government to 
effect the d(2) withdrawals, which then led to all the future 
parks, wildlife refuges, and wilderness areas.
    But the purpose of the Native Claims Act was not to turn 
Alaska into a national park . . . it was meant to return a 
fraction of the lands the Federal Government took from our 
First Americans.
    However, in the Chugach region, the Native people have not 
obtained what was promised. They were promised access to their 
Carbon Mountain lands, fee ownership of historic and cemetery 
sites, and maximum participation in the management of public 
land that affects them.
    But these promises were either broken or left to wither. 
Even now, while Chugach waits for a commitment to be honored, 
the government is planning new, unauthorized wilderness and 
wild and scenic river designations in the Chugach National 
Forest that will effectively impair the Natives' rights.
    Think about it. The Administration could have granted the 
easement years ago, but instead, devoted its attention to 
managing forest lands in a way that deprives the Natives of the 
promises, intent and purposes of ANCSA. What does that tell us 
about the government's intentions.
    I am especially perturbed with this Administration because 
it assured this Committee the easement would be issued by a 
time-certain deadline. Chugach met every obligation under the 
1982 Agreement, but no acceptable easement has been granted.
    I believe this Administration misrepresented its intentions 
to this Committee last year. It has no desire of issuing an 
easement. The Chugach people are tired of lip service, so I'm 
giving them H.R. 2547.
    I should note that my frustration is not with those 
dedicated Forest Service employees on the ground in Alaska . . 
. many Alaskans have worked hard to get this completed. The 
problem is here in Washington.
    There is no more excuse for further delays. The 
Administration can grant the easement today. It's that simple.
    I could go on, but there are more issues concerning the 
Native Claims Act and the Chugach Natives, and we'll leave that 
to our witnesses to explain.

    The Chairman. The Chairman now welcomes the witness Chugach 
Alaska Corporation, one who represents the environmental 
organization, and will the witnesses take the stand, Sheri 
Buretta, Mr. Edgar Blatchford and Mr. Dune Lankard.
    We will start out with Mr. Blatchford, please. He is 
chairman of the board, Chugach Alaska Corporation. Welcome, Mr. 
Blatchford. You are on.

  STATEMENT OF EDGAR BLATCHFORD, CHUGACH ALASKA CORPORATION, 
                       ANCHORAGE, ALASKA

    Mr. Blatchford. Thank you, Mr. Chairman. It is a pleasure 
to be back here. Thank you for this opportunity to testify 
again about the Federal Government's obligation to the Chugach 
people. My name is Edgar Blatchford, and I am chairman of the 
finance committee of Chugach Alaska Corporation's board of 
directors. And I say testify again, Mr. Chairman, because 17 
years ago I sat before another committee and testified to 
Congress about the Forest Service's entrenched commitment to 
frustrate the self-determination of the Chugach Natives and to 
deny them the fair and meaningful land settlement promised by 
the Congress of the United States. I came here 20 years ago and 
started the process that led up to the 1982 settlement 
agreement.
    Seventeen years ago I testified as chairman of the board of 
Chugach Alaska, then Chugach Natives, Inc. Since then we have 
changed our name to Chugach Alaska Corporation, and today a new 
generation has risen to the leadership of our Native 
corporation, a generation that should be finally reaping the 
benefits of land settlement we fashioned 17 years ago; a 
generation that should be finally building on the promises of 
ANCSA and ANILCA and the 1982 Chugach Natives, Inc., settlement 
agreement; finally, to taking care of our elders, preserving 
our heritage for our children, and providing meaningful 
benefits and opportunities under the ANCSA, a generation of 
promise which is embodied in our chairman, Sheri Buretta, from 
whom you will hear a little later.
    Instead it was with humble disappointment, Mr. Chairman, 
that we find ourselves today testifying before Congress about 
the very issues that brought me here 20 years ago, 17 years ago 
to this Committee: the entrenched refusal of the United States 
Forest Service to carry out the will of the Congress in meeting 
the Federal Government's obligations to the Chugach Native 
people.
    Mr. Chairman, in 1982, Chugach, the State of Alaska, the 
Forest Service and the United States Department of Interior 
entered into the 1982 Chugach Natives, Inc., settlement 
agreement. The agreement ended years of litigation by which the 
Chugach Natives sought to obtain a fair and just land 
settlement as envisioned in the Alaska Native Claims Settlement 
Act enacted in 1971. Under the settlement Act, largely because 
of Chugach National Forest lands withdrawals within our region, 
the Chugach Natives would have received nothing but 
mountaintops and glaciers in return for the extinguishment of 
our aboriginal land claims. In the years following the enact of 
ANCSA, the Forest Service did everything in its power to 
obstruct and delay the conveyance of economically viable lands 
to the ANCSA corporations created to effect Congress's land 
settlement to the Chugach people. Only pressure from the 
Congress caused the Forest Service to finally agree to a land 
settlement for Chugach. The 1982 settlement agreement finally 
provided Chugach with a land base upon which to build an 
economic future and a foundation for achieving the self-
determination of the Chugach people.
    Mr. Chairman, one of the cornerstones of the settlement was 
a large tract of land, 73,000 acres, known as the Bering River 
Coalfields, and also known as the Carbon Mountain tract. This 
tract of land is rich in mineral and timber resources, but 
unfortunately is surrounded by public lands with no road 
access. Recognizing that the entire value of this tract 
depended on access, the 1982 settlement agreement guarantees 
Chugach access across Forest Service land for the purpose of 
economic development. In fact, the settlement specifically 
calls this access ``an integral part'' of our settlement.
    Chugach was not in a position to develop the Carbon 
Mountain tract in the period immediately following the 1982 
settlement. It is important to remember that, as of this time, 
Chugach had not received a single acre of land to which it was 
entitled under the settlement Act, now already past its 10-year 
anniversary. In the years following the 1982 settlement, 
Chugach expanded its operations in Prince William Sound to 
fisheries, a traditional livelihood of the Chugach people. 
After establishing successful fishing operations, operations 
that paid our shareholders dividends out of corporate profits 
in the mid-1980s, Chugach finally turned its attention to the 
timber resources that were only beginning to be conveyed under 
the 1982 settlement.
    Mr. Chairman, I can speak of this period of time from 
personal experience as one of unprecedented optimism at Chugach 
Alaska Corporation. We had settled our land claims with the 
Federal Government. We had established successful fishing 
operations throughout south central Alaska, owning and 
operating canning and fish processing facilities in Cordova, 
Port Graham and Kodiak. We had embarked on a plan to develop 
our timber resources through investing heavily in timber 
harvesting and manufacturing operations in our region. We had 
even changed our name to reflect the promise of the future. I 
was proud to be on the board of directors during this period of 
growth and promise.
    As you recall, Mr. Chairman, in March of 1989, an oil 
tanker called the Exxon Valdez grounded beside the Native 
village of Tatitlek in the heart of our region and spilled 11 
million gallons of crude oil in the waters of Prince William 
Sound. As a result of the oil spill, virtually overnight, 
Chugach lost all of its fishing operations, it lost its timber 
and logging operations, and it was even forced to declare 
bankruptcy. It is impossible to overstate the consequences of 
this event on Chugach Alaska Corporation and its shareholders. 
Our businesses were completely destroyed, our communities 
devastated. The natural environment of our remarkable region 
which had sustained our people for thousands of years was 
blackened and ruined. As a result of the oil spill, it is safe 
to say that Chugach lost everything--everything except its 
land--or has Chugach lost all of its lands because of the oil 
spill?
    The Congress has been well-informed of the environmental 
damage caused by the Exxon Valdez oil spill. Damage has been 
well studied and documented. And it is easy to grasp the impact 
such an event would have on fishing and timbering operations.
    Today I am here to report a different kind of damage, an 
injury not so obvious, but one that needs your attention 
nonetheless. As a result of the oil spill, the Federal agencies 
charged with conveying the land and access rights we have been 
promised and to which we are legally entitled have embarked on 
a strategy of rendering Native lands in the Chugach region 
undevelopable all in the name of repairing the damage done by 
the oil spill.
    Mr. Chairman, in the wake of the oil spill, I was appointed 
for the third time to act as chairman of the board, but this 
time my responsibilities were specifically to hear and address 
the concerns of Chugach shareholders affected by the oil spill. 
I am well acquainted with the damage caused when the Exxon 
Valdez grounded on Blight Reef and can tell you that no one has 
been more damaged than the people in the Chugach region, the 
Chugach Natives, and the Federal Government will not repair 
this damage by depriving Chugach of the self-determination 
promised by Congress.
    Which brings us back to access to the Carbon Mountain 
tract. In 1994, Chugach began planning the development of its 
timber resources on the Carbon Mountain tract. A feasibility 
study in 1995 showed that the timber resources were 
economically viable and that development would provide 
significant benefits to our shareholders. In 1996, Chugach and 
the Forest Service began working to provide Chugach the access 
that was guaranteed in the 1982 settlement. Between 1996 and 
1998, at the Forest Service's insistence, Chugach spent 
millions of dollars studying the environmental consequences of 
a road to Carbon Mountain, even paying the Forest Service 
several hundreds of thousands of dollars to review the studies 
and process our application.
    Despite these studies, which the Forest Service has 
accepted as complete, despite these enormous sums of money, 
despite the promises and contractual commitments, despite even 
the genuine dedication of local Forest Service officers and 
employees, Chugach was compelled last year to seek the 
assistance from Congress in obtaining the promised easement 
from the Forest Service. At the time the Forest Service 
insisted that legislation was not necessary because it was on 
the verge of granting the easement required under the 1982 
agreement. But today we have no easement. Yet during the entire 
period of these attempts by Chugach to obtain the easement to 
which it is entitled under the 1982 settlement, the Forest 
Service has been acquiring land from Native corporations in the 
Chugach region, using money paid to the Exxon Valdez oil spill 
Trustee Council as a result of the oil spill. Not content to 
acquire land from willing sellers, its appetite whetted by 
EVOS-Council-funded acquisitions of surface estate and 
conservation easements from Chugach region village 
corporations, the Forest Service has determined to foreclose 
development on lands remaining in Native hands. These maps here 
show graphically the extent to which the Forest Service and 
other Federal agencies are committed to the eradication, Mr. 
Chairman, of the settlement Act's footprint from the Chugach 
National Forests.
    As Chugach redoubled its efforts to obtain a fair and 
meaningful land settlement for the Chugach people, many people 
will come before you purporting to speak for the Chugach 
Natives. But Congress created the Native corporations to be the 
vehicles for the self-determination of Alaska Natives, young 
and old, and it is the people elected by the shareholders of 
such corporations--such as myself and Chairman Buretta--who 
have the responsibility and duty to achieve the purposes of the 
Alaska Native Claims Settlement Act.
    Mr. Chairman, I conclude my statement with the simple 
statement, Chugach Alaska Native Corporation lands and Chugach 
Native lands are not for sale. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. Blatchford follows:]

 STATEMENT OF EDGAR BLATCHFORD, CHUGACH ALASKA CORPORATION, ANCHORAGE, 
                                 ALASKA

    Mr. Chairman, members of the Committee.
    Good afternoon, and thank you for this opportunity to 
testify again about the Federal Government's obligations to the 
Chugach people.
    My name is Edgar Blatchford, and I am Chairman of the 
Finance Committee of Chugach Alaska Corporation's Board of 
Directors. I say ``testify again'' because 17 years ago, I sat 
before another committee and testified to Congress about the 
Forest Service's entrenched commitment to frustrate the self-
determination of the Chugach Natives, and to deny them the fair 
and meaningful land settlement promised by the Congress of the 
United States.
    Seventeen years ago, I testified as Chairman of the Board 
of Chugach Natives, Inc. Since then, we have changed our name 
to Chugach Alaska Corporation, and today, a new generation has 
risen to the leadership of our Native Corporation: a generation 
that should be, finally, reaping the benefits of the land 
settlement we fashioned 17 years ago; a generation that should 
be, finally, building on the promises of ANCSA and ANIILCA and 
the 1982 Chugach Natives, Inc., Settlement Agreement; a 
generation turning, finally, to taking care of our elders, 
preserving our heritage for our children, and providing 
meaningful benefits and opportunities under ANCSA; a generation 
the promise of which is embodied in our Chairman, Sheri 
Buretta, from whom you will hear later this afternoon.
    Instead, it is with humble disappointment that we find 
ourselves today testifying before Congress about the very issue 
that brought me here 17 years ago: the entrenched refusal of 
the United States Forest Service to carry out the will of the 
Congress in meeting the Federal Government's obligations to the 
Chugach Native people.
    In 1982, Chugach, the State of Alaska, the Forest Service 
and the United States Department of Interior entered into the 
1982 Chugach Natives, Inc., Settlement Agreement. The Agreement 
ended years of litigation by which the Chugach Natives sought 
to obtain a fair and just land settlement as envisioned in the 
Alaska Native Claims Settlement Act, enacted in 1971. Under the 
Settlement Act, largely because of Chugach National Forest 
lands withdrawn within our region, the Chugach Natives would 
have received nothing but mountaintops and glaciers in return 
for the extinguishment of our aboriginal land claims. In the 
years following enactment of ANCSA, the Forest Service did 
everything in its power to obstruct and delay the conveyance of 
economically viable land to the ANCSA Corporations created to 
effect Congress's land settlement for the Chugach people. Only 
pressure from the Congress caused the Forest Service to finally 
agree to a land settlement for Chugach. The 1982 Settlement 
Agreement finally provided Chugach with a land base upon which 
to build an economic future and a foundation for achieving the 
self-determination of the Chugach people.
    One of the cornerstones of the settlement was a large tract 
of land--73,000 acres--known as the Bering River Coalfields, 
and also known as the Carbon Mountain Tract. This tract of land 
is rich in mineral and timber resources, but, unfortunately, is 
surrounded by public lands with no road access. Recognizing 
that the entire value of this tract depended on access, the 
1982 Settlement Agreement guarantees Chugach access across 
Forest Service land for the purpose of economic development. In 
fact, the settlement specifically calls this access ``an 
integral part'' of the settlement.
    Chugach was not in a position to develop the Carbon 
Mountain Tract in the period immediately following the 1982 
Settlement. It is important to remember that, as of this time, 
Chugach had not received a single acre of land to which it was 
entitled under the Settlement Act, now already past its 10-year 
anniversary. In the years following the 1982 settlement, 
Chugach expanded its operations in Prince William Sound 
fisheries, a traditional livelihood of the Chugach people. 
After establishing successful fishing operations--operations 
that paid our shareholders dividends out of corporate profits--
in the mid-80's, Chugach turned its attention to the timber 
resources that were only beginning to be conveyed to it under 
the 1982 settlement.
    I can speak of this period of time from personal experience 
as one of unprecedented optimism at Chugach Alaska Corporation. 
We had settled our land claims with the Federal Government. We 
had established successful fishing operations throughout south 
central Alaska, owning and operating canning and fish 
processing facilities in Cordova, Port Graham and Kodiak. We 
had embarked on a plan to develop our timber resources through 
investing heavily in timber harvesting and manufacturing 
operations in our region. We had even changed our name to 
reflect the promise of the future. I was proud to be on the 
Board of Directors during nearly this entire period of growth 
and promise.
    And so it was that I was serving on the Chugach Board of 
Directors in March of 1989 when an oil tanker called the Exxon 
Valdez grounded beside the Native Village of Tatitlek, in the 
heart of our region, and spilled 11 million gallons of crude 
oil into the waters of Prince William Sound. As a result of the 
oil spill, virtually overnight, Chugach lost all of its fishing 
operations; it lost its timber and logging operations; and it 
even was forced to declare bankruptcy. It is impossible to 
overstate the consequences of this event on Chugach Alaska 
Corporation. Our businesses were completely destroyed; our 
communities were totally devastated. The natural environment of 
our remarkable region, which had sustained our people for 
thousands of year, was blackened and ruined. As a result of the 
oil spill, it is safe to say that Chugach lost everything--
everything except its land . . . or has Chugach all but lost 
its land because of the oil spill, after all?
    The Congress has been well-informed of the environmental 
damage caused by the Exxon Valdez oil spill, damage that has 
been well-studied and documented. And it is easy to grasp the 
impact such an event would have on fishing and timbering 
operations. Today, I am here to report a different kind of 
damage, an injury not so obvious, but one that needs your 
attention nonetheless. As a result of the oil spill, the 
Federal agencies charged with conveying the land and access 
rights we have been promised and to which we are legally 
entitled have embarked on a strategy of rendering Native land 
within the Chugach Region undevelopable, all in the name of 
``repairing'' damage done by the oil spill.
    Ladies and gentlemen, in the wake of the oil spill, I was 
appointed for the third time to act as Chairman of the Chugach 
Board. But this time, my responsibilities were specifically to 
hear and address the concerns of Chugach shareholders affected 
by oil spill. I am well acquainted with the damage caused when 
the Exxon Valdez grounded on Blight Reef, and can tell you that 
no one has been more damaged by the oil spill than Chugach. And 
the Federal Government will not repair this damage by depriving 
Chugach of the self-determination promised by Congress.
    Which brings us back to access to the Carbon Mountain 
Tract. In 1994, Chugach began planning the development of its 
timber resources on the Carbon Mountain Tract. A feasibility 
study in 1995 showed that the timber resources were 
economically viable, and that development would provide 
significant benefits to Chugach's shareholders. In 1996, 
Chugach and the Forest Service began working to provide Chugach 
the access that was guaranteed in the 1982 settlement. Between 
1996 and 1998, at the Forest Service's insistence, Chugach 
spent millions of dollars studying the environmental 
consequences of a road to Carbon Mountain, even paying the 
Forest Service hundreds of thousands of dollars to review the 
studies and process our easement application.
    Despite these studies, which the Forest Service has 
accepted as complete; despite these enormous sums of money; 
despite the promises and contractual commitments; despite even 
the genuine dedication of local Forest Service officers and 
employees, Chugach was compelled last year to seek assistance 
from Congress in obtaining an easement from the Forest Service. 
At the time, the Forest Service insisted that legislation was 
not necessary because it was on the verge of granting the 
easement required under the 1982 settlement.
    But today, we still have no easement.
    Yet, during the entire period of these attempts by Chugach 
to obtain the easement to which it is entitled under the 1982 
settlement, the Forest Service has been acquiring land from 
Native Corporations in the Chugach Region, using money paid to 
the Exxon Valdez Oil Spill Trustee Council as a result of the 
oil spill. Not content to acquire land from willing sellers, 
its appetite whetted by EVOS-Council-funded acquisitions of 
surface estate and conservation easements from Chugach Region 
Village Corporations, the Forest Service has determined to 
foreclose development on land remaining in Native hands. These 
maps show graphically the extent to which the Forest Service 
and other Federal agencies are committed to the eradication of 
ANCSA's footprint from Chugach National Forest.
    As Chugach redoubles its efforts to obtain a fair and 
meaningful land settlement for the Chugach people, many people 
will come before you purporting to speak for the Chugach 
Natives. But Congress created Native Corporations to be the 
vehicles for the self-determination of Alaska Natives, and it 
is the people elected by the shareholders of such 
Corporations--such as myself and Chairman Buretta--who have the 
responsibility and duty to achieve the purposes of ANCSA.

    The Chairman. Before we go on, would you have your staff 
explain to the Committee what those green spots are? Is that 
what they bought? You mentioned the exposure there. Whoever is 
going to do it.
    Ms. Buretta. If I could have Peter Giannini answer that.
    The Chairman. Go ahead.
    Mr. Giannini. Thank you, Mr. Chairman. There are actually 
two maps. The one that I have sat down on the floor shows the 
extent of Native land surface holdings in Prince William Sound 
prior to the EVOS acquisitions.
    The Chairman. Would you have somebody else point them out? 
Which one are we talking about now? That was before the 
purchase of land.
    Mr. Giannini. It is upside down. That shows the full extent 
of Native surface holdings in Prince William Sound prior to the 
oil spill acquisitions. That was all fee simple Native land.
    The Chairman. And the second one is after they purchased 
the property?
    Mr. Giannini. Anything in green remains unrestricted fee 
simple Native ownership. If it had a black outline, that means 
it has been purchased in fee by the Exxon Valdez Oil Spill 
Council and transferred to a Federal or State agency, or that 
the surface rights have been restricted to development with or 
without public access.
    The Chairman. Do you have the number of acreage that has 
been purchased?
    Mr. Giannini. It is roughly 235,000 purchased.
    The Chairman. Purchased by the oil spill money.
    Mr. Giannini. Either in fee of the development rights.
    The Chairman. Edgar is telling me that prior to the oil 
spill money, the oil spill itself, there was an active fishing 
and a viable company or a corporation. But after the oil spill, 
which destroyed the fisheries and any other activities, the 
moneys that were settled by Exxon to the council, the council 
has been eradicating the Native-owned land.
    Mr. Blatchford. That is correct.
    The Chairman. Thank you.
    Ms. Sheri Buretta, chairman of the corporation, you are now 
up.

  STATEMENT OF SHERI BURETTA, CHAIRMAN OF THE BOARD, CHUGACH 
             ALASKA CORPORATION, ANCHORAGE, ALASKA

    Ms. Buretta. Thank you, Mr. Chairman, members of the 
Committee. Thank you for the opportunity to speak today on 
behalf of the Chugach people.
    Mr. Chairman, I would like to thank some of the 
Congressmen. I know that you have rearranged your schedule to 
be here today, and I appreciate that very much.
    Before I get started, I would like to ask you a few 
questions, Mr. Chairman. I have the additional information on 
the maps and our environmental study that I would like to be 
added to the record.
    The Chairman. Without objection.
    Ms. Buretta. Thank you.
    I have already introduced our special counsel, Mr. Peter 
Giannini, and from time to time if there are technical 
questions, I would like to refer to him.
    Finally, my testimony may take a few minutes longer than 
the 5 minutes allocated.
    The Chairman. I am very lenient with Alaskan witnesses who 
have traveled 5,000 miles to Washington, DC.
    Ms. Buretta. My name is Sheri Buretta. I am the chairman of 
the board for Chugach Alaska Corporation and a shareholder in 
both Chugach and Tatitlek Corporations. My mother is an Aleut 
woman who grew up in the village of Tatitlek. I am here to talk 
about our land, which is at the heart of our culture and our 
heritage, and which was promised to us under the Alaska Native 
Claims Settlement Act as the cornerstone of our future.
    Our land was taken from us, without our consent, by the 
Russians, who later sold it again without our consent to the 
United States. Since then, generations of my ancestors have 
fought to regain ownership of that land and to restore the 
rights of Natives to makes decisions about how we use our land.
    In 1971, Native leaders were finally successful in reaching 
a settlement with the United States on our land claims, but we 
gave up much. Although Alaska Natives once owned all of Alaska, 
Native land holdings were reduced under ANCSA to entitlements 
for each of the village and regional corporations. Chugach 
Alaska Corporation, formerly Chugach Natives, Inc., was given 
an entitlement to 375,000 acres of land plus the subsurface 
under village corporation lands. We accepted this settlement 
because we believed that the United States would honor its 
commitment to return the land to us and because we believed 
that our people would benefit from economic development of our 
land by the for-profit corporation created by this Congress as 
the vehicle for Native self-determination.
    But as Mr. Blatchford has told you, we were not given the 
land we were promised. Instead, we found that much of the land 
in the region of Chugach's entitlement had already been made a 
national forest which they called the Chugach National Forest. 
As a result, the only lands available for the Chugach people to 
select were mountains and glaciers.
    In 1975, Chugach sued the United States. In 1982, through 
the efforts of the elders who had obtained the settlement and a 
new generation of Natives such as Mr. Blatchford, who had 
college educations and a degree of sophistication about the 
political process, we reached a second written settlement, the 
1982 Chugach Natives, Inc., settlement agreement with the 
United States Departments of Interior and Agriculture, which 
finally promised us our land and our rights of access to it.
    Many of the elders who were responsible for ANCSA are now 
gone, and it has been almost 20 years since the second 
settlement was agreed to, but Chugach has yet to receive the 
land which it was promised. These problems must not pass to yet 
another generation. It cannot fall to my 2-year-old daughter to 
complete the work that her great-grandfather began. It must be 
resolved now.
    One of the issues that brings us to Washington involves 
access to our land. This easement was promised in writing in 
the 1982 settlement. Without access, the 73,000-acre tract at 
Carbon Mountain is worthless. In a recent radio interview, one 
of our critics accused us of seeking this easement because it 
makes our land more valuable, but this is not true. In order to 
make any meaningful use of our land at Carbon Mountain, we must 
have the access we were promised. What landowner would think 
otherwise?
    We have spent over a million dollars addressing the 
environmental issues relating to access. We have addressed all 
of the Forest Service concerns. We have been required to do 
twice the studies of any other road built in a national forest. 
We have been required to pay the Forest Service over $100,000 
to do their part in the preparation of the environmental 
documents.
    On January 12, 1999, the forest supervisor of the Chugach 
National Forests deemed our application complete, finding that 
the content and the format of these environmental documents was 
consistent and responsive with the Forest Service's requests. 
Under our Memorandum of Understanding with the Forest Service, 
Chugach was to have its easement within 45 days, but as a 
result of pressure from environmental groups and the 
administration, we have nothing but delays. We have yet to see 
a draft easement which grants us the rights we need to access 
and develop our property. According to the Forest Service, we 
are at impasse over what the government lawyers call an 
exchange of easements, despite the fact that Chugach has 
already given the government all of the easements we are 
required to give under the Chugach Native settlement agreement, 
and we have agreed to allow public access over any road we 
build.
    The outspoken opponents to Chugach getting our rights are 
funded, although many have never even stepped foot on the land 
that they are so driven to take from us. The people of the 
Chugach region have inhabited this area for over 7,000 years 
and deserve to be able to access and utilize it.
    When the devastating Exxon Valdez oil spill happened in our 
beautiful and abundant waters, the spotlight was on our home 
and lives. The world got a good look at the Prince William 
Sound, and many people decided that their opinions about what 
was best for everyone are more important than the owners of the 
property.
    There is a war being waged against the continued private 
ownership of this land. We are witness to this by the treatment 
that we have received from the Federal agencies, which give 
more weight to the views of environmental activists than they 
do to their obligations to the Native people. This attack on 
Native rights pours salt on the wounds that are left in the 
wake of a horrendous environmental disaster that not only 
crippled the economies of the communities surrounding the 
spill, but cast a dark shadow over a lifestyle depending on the 
precious resources provided by the waters of Prince William 
Sound. This event changed the course of an innocent, simple 
culture.
    Unfortunately, it also created a huge war chest for the 
State and Federal Governments, which are trustees for a $900 
million settlement that does not consider humans as part of the 
environment affected by the spill. They have justified that 
buying private land from the people most affected by the spill 
is a way of protecting it from future devastation. The fact 
that Exxon Corporation has used legal tactics for the past 10 
years to avoid paying billions of dollars to the people of the 
affected area is criminal. It only assists the government in 
creating a land grab. The State and Federal Governments are 
taking advantage of the economic situation that these people 
are faced with as a means of survival.
    Using the EVOS funds, the State and Federal Government have 
been extinguishing Native ownership in Prince William Sound. 
These maps show clearly the devastating impact that EVOS' 
purchases have had on Native presence in Prince William Sound. 
The surface estate owned by Native corporations prior to EVOS 
is shown in green. The maps show the extent to which those 
ownership rights have been extinguished. The land in gray is 
land which has been either sold to the State and Federal 
Government or is subject to such restrictive conservation 
covenants that it has no continuing economic value.
    While some of the EVOS land remains in Native ownership, it 
is really nothing more than a park. ANCSA promised us land and 
economic development. We did not bargain for ownership of 
parks. The EVOS fund has created a mindset in our public 
officials such that they now believe it is their duty to 
facilitate the extinguishment of Native ownership in Prince 
William Sound rather than fulfill the commitments made to us in 
1971 and 1982. Chugach still has thousands of acres of land to 
which it has yet to receive patent. Although BLM says it 
doesn't have the resources to process those conveyances, which 
date back to 1971, it was able to immediately process the 
conveyances to EVOS of property that it bought.
    The Department of Interior seems far more interested in 
buying up Native lands than it does in honoring its ANCSA 
commitments. Several weeks ago I met with the special assistant 
to the Secretary of Interior and asked for her help in gaining 
the title to our lands and in obtaining the easement. I told 
her Chugach was under increasing pressure from environmental 
groups to sell our land, and that the president of the Alaska 
chapter of a national environmental group had said that it we 
were unwilling to accept a conservation easement on our land at 
Carbon Mountain, that they would sue us.
    I made it clear that Chugach's board of directors has 
clearly stated that Chugach land is not for sale. Her response 
was, I know your land is not for sale, but would you consider a 
conservation easement? This is not what the Department of 
Interior agreed to do under ANCSA and the Chugach Native 
settlement, but it is the new EVOS mindset.
    In a meeting with the Forest Service in June in a failed 
attempt to negotiate an acceptable easement document, the 
government lawyer said, we don't want you to have this 
easement, and suggested that once an easement is granted, 
Chugach should begin discussing a sale or trade of our land in 
Carbon Mountain and Prince William Sound. As a Native 
corporation we are entitled to our own lands and to make the 
decisions about how to use it, just like every other private 
property owner.
    The Congress of the United States created Native 
corporations as the vehicle of Native self-determination. 
Congress envisioned that these corporations would make the 
decisions as to if and when to develop the land through their 
elected board of directors. Mr. Blatchford and I are two such 
elected representatives, and it is the will of our board that 
Chugach obtain the rights to which we are entitled. Most of our 
shareholders support the board. The Eyak Corporation, the 
Village Corporation for the Cordova area and the Eyak Tribal 
Council are both on record as supporting our easement. Some of 
our shareholders disagree. Although we respect their positions 
and their right to their own opinions, our board believes it 
should be trusted to make the decisions with which it is 
charged under ANCSA and Alaska law. We believe we can make them 
responsibly with the best interests of our shareholders in 
mind, and we should be allowed to do so without the 
interference of non-Native groups, especially environmental 
groups based outside of Alaska.
    We resent the implication that Alaska Natives are too 
inexperienced or irresponsible to be trusted with the land on 
which we have lived for thousands of years.
    Chugach Alaska Corporation's mission statement has three 
parts: a commitment to profitability, a commitment to preserve 
our heritage, and a commitment to continued ownership of our 
lands. The legislation which has been referred to this 
Committee is an important step toward allowing Chugach Alaska 
Corporation to exercise self-determination over our lands and 
our historic sites and to fulfill each of the three elements of 
our mission.
    In summary, Mr. Chairman, I ask you on behalf of the Native 
people of the Chugach region to move this bill forward. We have 
waited a long time for our land and for our rights. We have 
been profoundly affected by the oil spill and the delay of the 
Federal agencies. It is time to bring these matters to an end. 
It is time for the Native people of the Chugach region to have 
control over our lands, over our lives, and over our destinies. 
Thank you.
    The Chairman. Thank you, Sheri.
    [The prepared statement of Ms. Buretta follows:]

   STATEMENT OF SHERI BURETTA, CHAIRMAN OF THE BOARD, CHUGACH ALASKA 
                     CORPORATION, ANCHORAGE, ALASKA

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to speak on behalf of the Chugach people.
    My name is Sheri Buretta. I am Chairman of the Board of 
Chugach Alaska Corporation and a shareholder in both Chugach 
and The Tatitlek Corporation. My mother is an Aleut woman who 
grew up in the Village of Tatitlek.
    I am here to talk about our land, which is at the heart of 
our culture and our heritage and which was promised to us under 
the Alaska Native Claims Settlement Act as the cornerstone of 
our future.
    Our land was taken from us, without our consent, by the 
Russians, who later sold it, again without our consent, to the 
United States. Since then, generations of my ancestors have 
fought to regain ownership of that land and to restore the 
rights of Natives to make decisions about how we use our land.
    In 1971, Native leaders were finally successful in reaching 
a settlement with the United States on our land claims. But we 
gave up much. Although Alaska Natives once owned all of Alaska, 
Native land holdings were reduced under ANCSA to entitlements 
for each of the Village and Regional corporations. Chugach 
Alaska Corporation, formerly Chugach Natives, Inc., was given 
an entitlement to 375,000 acres of land, plus the subsurface 
under Village Corporation lands. We accepted this settlement 
because we believed that the United States would honor its 
commitment to return the land to us, and because we believed 
that our people would benefit from economic development of our 
land by the for-profit corporations created by this Congress as 
the vehicles for Native self-determination.
    But, as Mr. Blatchford has told you, we were not given the 
land we were promised. Instead, we found that much of the land 
in the region of Chugach's entitlement had already been made a 
national forest--which they call the Chugach National Forest. 
As a result, the only lands available for the Chugach people to 
select were mountaintops and glaciers.
    In 1975, Chugach sued the United States. In 1982, through 
the efforts of the elders who had obtained the settlement and a 
new generation of Natives such as Mr. Blatchford, who had 
college educations and a degree of sophistication about the 
political process, we reached a second written settlement--the 
1982 Chugach Natives, Inc., Settlement Agreement--with the 
United States Departments of Interior and Agriculture, which 
finally promised us our land and our rights of access to it.
    Many of the elders who were responsible for ANCSA are gone 
now, and it has been almost 20 years since the second 
settlement was agreed to. But Chugach has yet to receive the 
land which it was promised. These problems must not pass to yet 
another generation. It cannot fall to my 2-year-old daughter to 
complete the work her great-grandfather began. It must be 
resolved now.
    One of the issues that brings us to Washington involves 
access to our land. This easement was promised in writing in 
the 1982 settlement. Without access, the 73,000-acre-tract at 
Carbon Mountain is worthless. In a recent radio interview, one 
of our critics accused us of seeking this easement because it 
makes our land more valuable. But this is not true. In order to 
make any meaningful use of our land at Carbon Mountain, we must 
have the access we were promised. What land owner would think 
otherwise?
    We have spent over $1 million addressing the environmental 
issues relating to access. We have addressed all of the Forest 
Service concerns. We have been required to do twice the studies 
of any other road built in a national forest. We have been 
required to pay the Forest Service over $100,000 to do their 
part in the preparation of the environmental documents.
    On January 12, 1999, the Forest Supervisor of the Chugach 
National Forest deemed our application complete, finding that 
the content and the format of these environmental documents was 
consistent with and responsive to the Forest Service's 
requests.
    Under our Memorandum of Understanding with the Forest 
Service, Chugach was to have its easement within 45 days. But 
as a result of pressure from environmental groups and the 
administration, we have had nothing but delays.
    We have yet to see a draft easement which grants us the 
rights we need to access and develop our property. According to 
the Forest Service, we are at impasse over what the government 
lawyers call an ``exchange of easements''--despite the fact 
that Chugach has already given the government all of the 
easements we are required to give under the Chugach Natives 
Settlement Agreement, and we have agreed to allow public access 
over any road we build.
    The outspoken opponents to Chugach getting our rights are 
heavily funded, although many have never even stepped foot on 
the land that they are so driven to take from us. The people of 
the Chugach Region have inhabited this area for over 7,000 
years and deserve to be able to access and utilize it.
    When the devastating Exxon Valdez oil spill happened in our 
beautiful and abundant waters, the spotlight was on our home 
and lives. The world got a good look at the Prince William 
Sound, and many people decided that their opinions about what 
is best for everyone are more important than those of the 
owners of the property. There is a war being waged against the 
continued private ownership of this land. We are witness to 
this by the treatment that we have received from the Federal 
agencies, which give more weight to the views of environmental 
activists than they do to their obligations to the Native 
people.
    This attack on Native rights pours salt on the wounds that 
are left in the wake of the horrendous environmental disaster 
that not only crippled the economies of the communities 
surrounding the spill, but cast a dark shadow over a lifestyle 
dependent on the precious resources provided by the waters of 
the Prince William Sound. This event changed the course of an 
innocent simple culture.
    Unfortunately, it also created a huge war chest for the 
state and Federal governments, which are trustees for a $900 
million settlement that does not consider humans as part of the 
environment affected by the spill. They have justified that 
buying private land from the people most affected by the spill 
is a way of protecting it from future devastation: i.e., 
logging, development, private ownership. The fact that Exxon 
Corporation has used legal tactics for the past 10 years to 
avoid paying billions of dollars to the people of the affected 
area is criminal. It only assists the government in creating a 
land grab. The State and Federal governments are taking 
advantage of the economic situation that these people are faced 
with as a means of survival.
    Using the EVOS fund, the state and Federal Governments have 
been extinguishing Native ownership in Prince William Sound. 
These maps show clearly the devastating impact the EVOS 
purchases have had on the Native presence in Prince William 
Sound. The surface estate owned by Native corporations prior to 
EVOS is shown in green. The maps show the extent to which those 
ownership rights have been extinguished. The land in grey is 
land which has been either sold to the state and Federal 
Government or is subject to such restrictive conservation 
covenants that it has no continuing economic value.
    While some of the EVOS land remains in Native ownership, it 
is really nothing more than a park. ANCSA promised us land and 
economic development. We did not bargain for ownership of 
parks.
    The EVOS fund has created a mind set in our public 
officials such that they now believe it is their duty to 
facilitate the extinguishment of Native ownership in Prince 
William Sound, rather than fulfil the commitments made to us in 
1971 and 1982. Chugach still has thousands of acres of land to 
which it has yet to receive patent. Although BLM says it 
doesn't have the resources to process those conveyances, which 
date back to 1971, it was able to immedately process the 
conveyances to EVOS of property it bought.
    The Department of Interior seems far more interested in 
buying up Native lands than it does in honoring its ANCSA 
commitments. Several weeks ago, I met with the Special 
Assistant to the Secretary of Interior, and asked for her help 
in gaining the title to our lands and in obtaining the 
easement. I told her Chugach was under increasing pressure from 
environmental groups to sell our land, and that the president 
of the Alaska chapter of a national environmental group had 
said that, if we were unwilling to accept a conservation 
easement on our land at Carbon Mountain, they would sue us.
    I made it clear that Chugach's Board of Directors had 
clearly stated that Chugach's land is not for sale. Her 
response was, ``I know your land is not for sale, but would you 
consider a conservation easement?''
    This is not what the Department of Interior agreed to do 
under ANCSA and the Chugach Native Settlement, but it is the 
new EVOS mind set.
    In a meeting with the Forest Service in June in a failed 
attempt to negotiate an acceptable easement document, the 
government lawyer said, ``We don't want you to have this 
easement,'' and suggested that, once an easement is granted, 
Chugach should begin discussing a sale or trade of our land in 
Carbon Mountain and Prince William Sound.
    As a Native corporation, we are entitled to own our land, 
and to make the decisions about how we use it, just like every 
other private property owner.
    The Congress of the United States created Native 
corporations as the vehicles of Native self-determination. 
Congress envisioned that these corporations would make the 
decisions as to if and when to develop the land through their 
elected board of directors. Mr. Blatchford and I are two such 
elected representatives, and it is the will of our Board that 
Chugach obtain the rights to which we are entitled. Most of our 
shareholders support the Board.
    The Eyak Corporation, the Village Corporation for the 
Cordova area, and the Eyak Tribal Council are both on record as 
supporting our easement.
    Some of our shareholders disagree. Although we respect 
their positions and their right to their own opinions, our 
Board believes it should be trusted to make the decisions with 
which it is charged under ANCSA and Alaska law. We believe we 
can make them responsibly with the best interests of our 
shareholders in mind, and we should be allowed to do so without 
the interference of non-Native groups, especially environmental 
groups based outside of Alaska.
    We resent the implication that Alaska Natives are too 
inexperienced or irresponsible to be trusted with the land on 
which we lived for thousands of years.
    Chugach Alaska Corporation's mission statement has three 
parts:

          1. A commitment to profitability, so we can provide economic 
        benefits to our shareholders, as Congress expected when it 
        created for-profit corporations as the economic organizations 
        of the Native community;
          2. A commitment to preserve our heritage. With the passing of 
        every Native elder, more and more of our culture is being lost. 
        As a Regional Native corporation, we must do what we can to 
        save what we can and pass it on to our children and our 
        children's children.
          3.A commitment to continued ownership of our Native lands.
    As Alaska Natives working, as ANCSA anticipated, through our Alaska 
Native Regional Corporation, we should be given the opportunity to 
balance these important commitments ourselves, and to reach the 
decisions which we believe are in the best interests of our own Native 
community. The legislation which has been referred to this Committee is 
an important step toward allowing Chugach Alaska Corporation to 
exercise self-determination over our lands and our historic sites, and 
to fulfill each of the three elements of our mission.
    Title I of the bill allows negotiations with the Forest Service to 
continue for a reasonable time, as they should, because there are no 
real issues standing in the way of the United States obtaining our 
easement, and there is no reason why an acceptable easement cannot be 
presented immediately. If the Forest Service is acting in good faith, 
then this title will be unnecessary. But if there is additional delay, 
we will have our easement by operation of law.
    Title II will allow Chugach Alaska to renew its application to 
cemeteries and historical sites on land which as purchased by EVOS from 
the Village Corporations. ANCSA provided that the Regional Corporation 
would have the right to apply for title to these sites on any land 
which the Village Corporations did not select.
    ANCSA did not anticipate the oil spill and the handicaps it would 
create for our people, or the huge fund of money which would be used to 
buy Village and private lands with cultural and historic significance 
at the same time the Exxon litigation was dragging on and on, depriving 
the people most affected of any meaningful compensation for their 
damages. The technical language of the law should not be used to keep 
these sites out of Native ownership.
    The Native graveyards at Kiniklik, one of the original village 
sites in Prince William Sound, was sold to EVOS at the same time 
Chugach's application for this site was denied because it was not 
Federal land. The village site and cemetery on Hawkins Island, called 
Quayvik (``The Crying Place''), where recently the bones of our 
ancestors were repatriated from museums, was sold to EVOS and 
transferred to the State of Alaska for a marine park.
    This is not what ANCSA intended. This Congress envisioned these 
places in Native ownership, and allowed Regional Corporations to take 
this responsibility if villages chose not to own the site. We should 
have the right to manage these sites which are so important to our 
culture and our heritage.
    Finally, Title III requires the Forest Service to meaningfully 
coordinate with Native Corporations as part of their planning process. 
Although ANCSA corporations are not on the list of ``recognized 
tribes'' in Alaska, this Congress gave us the duty to own and manage 
Native land.
    While it is important for the Forest Service to coordinate with the 
tribes, it is equally important that they coordinate with Native land 
owners. Chugach owns interests in 700,000 acres of land within the 
Chugach National Forest, and has rights of access under the law across 
the forest. It would be of mutual benefit to both the government and 
the Native community to work together prior to initiating the public 
process of forest land use planning, in order to avoid creating 
unreasonable expectations in the public by calling an area ``roadless'' 
when in fact it is burdened by the government's written obligation to 
provide an easement to access Native land.
    In summary, Mr. Chairman, I ask you, on behalf of the Native people 
of the Chugach Region, to move this bill forward. We have waited a long 
time for our land and for our rights. We have been profoundly affected 
by the oil spill and the delay of the Federal agencies. It is time to 
bring these matters to an end. It is time for the Native people of the 
Chugach Region to have control over our own land, over our lives, and 
over our destinies.
    Thank you.

    The Chairman. Mr. Lankard.

 STATEMENT OF DUNE LANKARD, EYAK RAINFOREST PRESERVATION FUND, 
                        CORDOVA, ALASKA

    Mr. Lankard. Thank you, Chairman Young and fellow House 
Members. My name is Dune Lankard. I am an Eyak Indian from the 
Chugach region. I am also a shareholder of both Eyak 
Corporation and the Chugach Alaska Corporation.
    Our Eyak people have 3,500 years of history on the Copper 
River Delta. There are four distinct tribes in the Chugach 
region, the Eyak, the Tlingit, the Aleut and the Chugach, and 
out of the 1,900 shareholders of the Chugach Corporation, we 
only make up about 50, so we are a superminority tribe within a 
corporation. And out of the 326 village corporation 
shareholders, we only make up 37, so again, we are a 
superminority of our own corporation, so whatever the 
corporation decides to do, we have to go along with it because 
we don't have the votes to overpower the majority.
    The Eyak people have historically lived off of the Copper 
River Delta and its incredible salmon runs. There are about 500 
gill netters that have made a living off the Copper River Delta 
salmon, and it has been the catalyst to our industry since the 
Exxon Valdez oil spill.
    I would like to tell you a little bit about the history of 
the region. In the 1800s they tried to build canneries, and 
they basically wiped out the majority of the fish. Shortly 
after that they decided to get into mining and build the Copper 
River Railway, and that didn't pan out very well either. So we 
have a strong history of natural resources extraction that has 
not made a lot of money for the people, but a lot of resources 
have left the region.
    In the early 1900s there was clear-cutting in some of the 
areas in Prince William Sound; only 6,500 acres fell. In the 
last 10 years since the Exxon Valdez oil spill, the Native 
corporations have leveled over 50,000 acres, yielding very 
little to no dividends for the shareholders. For example, in 
the Eyak Corporation they leveled 1,700 acres of trees, and we 
were paid $3,000 apiece, that is $978,000, and over a $100 
million in losses, so there was no money in the extraction of 
the timber.
    As far as I see it, what the issue is, it is about 
environmental restoration in the region from the Exxon Valdez 
oil spill, not about economic restoration. I think what we need 
to do is stop the hemorrhaging in the region. What this 
legislation does is it allows a road to be built across the 
Copper River Delta, again which is one of the most incredible 
wetlands left intact and is still pristine and highly 
productive in the world. I think it is important if they are 
going to build a road across the delta, that they spend the 
extra money and make sure that it is done right, and that it is 
done properly, and to see that the environment as well as the 
salmon fishery continues well into the future.
    The history of our corporation, in 1971, the Chugach Alaska 
Corporation, we have seen very little dividends. I believe the 
total to date has been about $750 paid over 28 years. And I 
don't see that changing with the building of this road which 
could cost 20- to $30 million. I would imagine that the 8,000 
acres of hemlock doesn't have much value, so they would be 
lucky if they cover the cost of building the road.
    In 1986, under the net operating loss sale, the Chugach 
Alaska Corporation sold the Bering River Coalfields. They were 
valued at $100 million. They sold it for $3 million. That 
created a $97 million loss on a blank piece of paper. Those 
losses were sold for the $50 million that was eventually lost 
in the bankruptcy. During that 1991 bankruptcy, our Chugach 
Alaska Corporation transferred the Bering River Coalfields to 
an outside corporation. There was a subsidiary joint owner 
called Korean Alaska Development Corporation where the 
shareholders did not have a say in how those assets were to be 
transferred, so we lost the entire Bering River Coalfields.
    Now they want to get legislation that opens up the road 
across the delta so they can level the 8,000 acres of trees 
that has no market. The Asian market crash has severely 
affected Native logging in Alaska. I don't know what crystal 
ball they are looking at, but I don't see that changing again 
in the near future.
    So what we are concerned with is that if you apply the 
wisdom from the past experiences of the bad decisions that the 
corporation has made, then the best thing that it could do is 
bring the shareholders together and try to figure out what is 
best for the corporation.
    In the Chugach region, four of the five village 
corporations chose to do deals with the Exxon Valdez Oil Spill 
Trustee Council. I have never once supported sale of our land, 
Mr. Chairman. I have never once said that Native land should be 
for sale. The government could have met the goals of 
restoration without buying title to our land. They could have 
purchase development restrictions, and we would still retain 
title and be paid to watch our trees grow, subsistence 
continues, and the fish keeping jumping.
    I think under this situation that probably the best thing 
that could happen to the Chugach Corporation at this time right 
now is if a comprehensive conservation easement package was put 
together that was able to help the corporation become solvent 
and liquid. I think that at this time we are at a very critical 
stage because with the year 2000 coming up and the fact that 
the last director of the corporation, Mr. Brown, has left 
office, I think that now is a good time for the corporation to 
be looking at other alternatives. And so I feel that the bill, 
the way that it is written, that under title I it would force 
the Secretary of Agriculture to grant the CAC an easement in 
the Chugach National Forest allowing the construction of a 55-
mile logging road across the Copper River Delta. The thing that 
I am concerned about there is that we are not only talking 
about a 55-mile logging road--that is just to get there--we are 
talking about a couple of hundred miles of logging roads once 
they do get there, and I do not think that the economics are 
there. The corporation has never given its shareholder an 
economic analysis to show how they are going to make any money 
from this logging operation.
    Under title II it would require the Secretary of the 
Interior to undo certain land conveyances agreed upon by the 
Alaska Native villages corporations. The regional corporations 
were never in the position to receive title to our cemetery or 
our burial sites or any of our historical sites, so I don't 
feel that they should be able to come back and double-dip. In 
fact, in reality, the lands have more protections now than they 
did when they were owned by the regional and the village 
corporations. Because in 1992 our village corporation, Eyak 
Corporation, decided to clear-cut Eyak River even though we 
proved there were culturally modified trees, burial sites, 
charcoal rocks, village sites in the direct vicinity, they were 
able to clear-cut the land anyway, where at least if it was 
under some sort of protection, State or Federal historical 
preservation Act laws, we would have been able to at least get 
an injunction to stop them.
    Under title III, it would effectively amend the National 
Forests Management Act by forcing the Secretary of Agriculture 
to engage in extensive coordination with CAC and other Alaska 
Native corporations before revising, developing or maintaining 
national forest land management plans.
    Under this I feel that the Chugach Alaska Corporation 
should not have preferential treatment, Mr. Chairman, and I 
feel that with the way that the public process has worked, 
there has been 114 meetings since 1997, and Chugach has 
participated in the great majority of those meetings, so I feel 
that they have participated, and I think that this legislation 
not only overrides public process, but it overrides what the 
best interests of the 1,900 shareholders are.
    I don't think that nine board members have the wisdom to do 
for its 1,900 shareholders at this point. If you look at the 
track record and the decisions that they have made, they have 
made poor and bad decisions over and over again.
    I really think that this legislation, if it is written to 
really help the Native people, then it should include the 
Native people. And you as Congressmen should understand that 
Native corporations are not Native people, they are separate 
entities. They do not represent the best interests of the 
shareholders.
    [The prepared statement of Mr. Lankard follows:]

  STATEMENT OF DUNE LANKARD, EXECUTIVE DIRECTOR & SPOKESPERSON, EYAK 
         PRESERVATION COUNCIL, EYAK TRADITIONAL ELDERS COUNCIL

Introduction

    My name is Dune Lankard. I am a local resident of the 
Copper River Delta and Prince William Sound. As an Eyak Indian, 
local commercial and subsistence fisherman, and shareholder of 
both the Eyak Corporation and the Chugach Alaska Corporation, I 
appreciate the opportunity to submit written and oral testimony 
for the Hearing Record opposing H.R. 2547.
    The Eyak Preservation Council and Eyak Traditional Elders 
Council strongly opposes H.R. 2547. The Eyak Preservation 
Council is a grassroots defense fund for the traditional lands 
of the Eyak people. We represent issues facing our Eyak 
Traditional Elders Council and address local and regional 
environmental issues and concerns that erode our subsistence 
relationship to our ancestral lands of the Copper River Delta. 
The Eyak Traditional Elders Council represents the Eyak Tribe, 
one of the 550 federally recognized tribes in America, we are 
also one of the 226 recognized tribes in Alaska, and we are one 
of the four distinct tribes of the Chugach region (Eyak, 
Chugach, Aleut and Tlingit) that own shares of stock in the 
Chugach Alaska Corporation (CAQ, an Alaska Native Claims 
Settlement Act (ANCSA, 1971) corporation.
    The Copper River Delta is one of the most fragile, wild and 
highly productive ecosystems left intact in the Chugach 
National Forest and possibly the world. Our Eyak people have 
for thousands of generations survived off the incredible bounty 
of this irreplaceable region. To even consider upsetting the 
delicate balance of this region and the Copper River Delta 
salmon fishery is unacceptable--we as humans, cannot manage 
land better than nature does itself.
    H.R. 2547 is divided into three titles, each of which is 
apparently intended to resolve a private dispute between CAC 
and the United States Government:

          Title I would force the Secretary of Agriculture to grant to 
        CAC an easement in the Chugach National Forest allowing the 
        construction of a 55-mile logging road across the incomparable 
        Copper River Delta.
          Title II would require the Secretary of the Interior to undo 
        certain land conveyances agreed upon by Alaska Native village 
        corporations and the U.S. Government as part of the Exxon 
        Valdez oil spill restoration program.
          Title III would effectively amend the National Forest 
        Management Act by forcing the Secretary of Agriculture to 
        engage in extensive ``coordination'' with CAC and othcr Alaska 
        Native corporations before revising, developing or maintaining 
        national forest land management plans.

    Although we recognize certain rights granted to CAC by ANCSA, the 
Alaska National Interest Lands Conservation Act (ANILCA, 1980), and the 
Chugach Native's Inc. Settlement Agreement (CNI, 1982), H.R. 2547 goes 
beyond the intent of these agreements by attempting to exempt CAC from 
environmental and public laws that safeguard the public's interest in 
national forest land and other public resources. ANCSA sought to strike 
a fair balance between the rights of Alaska's Indigenous people and 
members of the American public. H.R. 2547 rejects this responsible 
approach in favor of immediate but poorly considered action. H.R. 2547 
creates hasty ``solutions'' to complex issues and may ultimately harm 
the interests of both CAC and the general public. In particular, it may 
threaten the health and vitality of one of our world's environmental 
treasures, the Copper River Delta. The Eyak Preservation Council and 
Eyak Traditional Elders Council therefore opposes H.R. 2547.

The Copper River Delta

    The Copper River is located in a remote region of south central 
Alaska and drains significant portions of the Alaska, Wrangell, and 
Chugach mountain ranges into the Gulf of Alaska. For much of its 
length, the river forms the western boundary of the Wrangell-St. Elias 
National Park, the largest national park in the country. The St. Elias 
mountains to the east of the Copper River are the tallest coastal 
mountains in the world and are capped by the greatest mantle of glacial 
ice outside the polar ice caps and Greenland.
    The Copper River Delta lies at the confluence of the Copper River 
and the Gulf of Alaska. At 700,000 acres it is the largest wetlands 
complex on the Pacific coast of North America and an ecosystem of 
almost unparalleled productivity. The Copper River Delta hosts 
incredible numbers and varieties of fish and wildlife. Considered by 
biologists to be one of the most important shorebird habitats in the 
western hemisphere, the Delta is a critical staging area for over 16 
million shorebirds and waterfowl. It supports world-renowned salmon 
runs and is a haven for grizzly bears, black bears, wolves, mountain 
goats, moose, wolverines, mink, otters, sea lions, and harbor seals.
    The Copper River Delta is also a place of incredible beauty and 
uncompromising wildness. Ragged peaks of rock and snow crowd the 
watershed. Pale blue glaciers split with explosive force thrusting 
enormous sheets of ice into the river. Sculpted icebergs ride the silty 
turbulent waters along with logs, brush, and other victims of the 
river's erosive appetite. Seals swim inland for miles hunting salmon 
while enormous brown bears patrol the shore. These scenes from an 
almost prehistoric landscape are accompanied by the uneasy music of 
current, ice and wind. There are other great wetlands ecosystems in the 
world, but few are as magnificent, dynamic and productive in its intact 
wild state as the Copper River Delta.
    Notwithstanding its harsh, untamed appearance, the Delta has 
nurtured the people of the Copper River basin for thousands of years. 
Thousands of generations of Eyak Indians and other tribal Nations have 
relied upon the bountiful fish and wildlife that thrive in the region. 
Today, over half of the watershed's population of 5,000 people live in 
the seaside town of Cordova, separated from the Delta by only the 
narrow Heney Range. Cordova is the region's sole community and most of 
its residents (many of whom are Native) continue to live a subsistence 
lifestyle-harvesting and sharing the area's sustainable natural 
resources. Commercial and subsistence fishing are the mainstays of 
Cordova's economy, in large part because of Copper River salmon, one of 
the most highly prized stocks of wild salmon in the world. The Copper 
River Delta is the nursery that sustains both fish, wildlife and human 
populations.
    Almost 100 years ago Teddy Roosevelt recognized that the Copper 
River Delta was a unique and irreplaceable natural wonder. In 1907, he 
created the Chugach National Forest to help protect the Copper River 
Delta and Prince William Sound from corporate monopolies engaged in 
coal mining and other unregulated development of public resources. 
Today's conservationists have learned from this wise example by making 
the Delta a Western Hemisphere Shorebird Reserve Network Site, an 
emphasis area in the North American Waterfowl Management Plan, and a 
State Critical Wildlife Habitat Area. The Copper River Delta is one of 
the most productive, beautiful, and untamed wetlands ecosystems in the 
world. Congressional action and/or any actions affecting this area 
should be thoroughly evaluated and responsive to a clearly established 
need.

Title I--Easement for Access

    ANILCA gave CAC, formerly known as Chugach Natives, Inc., the right 
to select lands within the boundaries of the Chugach National Forest. 
To ensure that CAC shareholders obtained a just and fair land 
settlement, the Secretary of Agriculture and others were directed to 
prepare a study of the Chugach region. Eventually, the U.S. Government, 
the State of Alaska and CAC signed an agreement, generally referred to 
as the 1982 CNI Settlement Agreement, directing the United States to 
convey to CAC 73,000 acres of land known as the Bering River/Carbon 
Mountain tract. The Bering River/Carbon Mountain tract lies 
approximately 30 miles east of the Copper River and 20 miles north of 
the Gulf of Alaska. It is bounded on three sides by the Chugach 
National Forest and on the fourth side by Bureau of Land Management 
holdings. Under ANILCA, CAC may access its land by utilizing the 
procedures established by 16 U.S.C. Sec.  3210. This is exactly the 
same right afforded to other Alaska Native corporations for accessing 
their own in-holdings. In addition, the 1982 Settlement Agreement 
provides that CAC may ``construct, at its own cost, roads, pipelines 
and transportation facilities for access necessary for economic 
utilization of the Bering River coal fields.''
    Although CAC no longer owns the Bering River coal fields (it 
conveyed title to a partnership of Korean corporations in 1992), it now 
proposes to log the 8,000-acres of coastal rainforest on the Bering 
River/Carbon Mountain tract. The 55-mile access road would sever 
hundreds of streams that feed the pristine, eastern portion of the 
Copper River Delta, including the Bering and Martin Rivers which are 
eligible for inclusion into the Federal Wild and Scenic River system. 
It would also degrade hundreds of acres of marsh and other wetlands. A 
heavily used logging road would inevitably impair the wildlife and 
aesthetic values of the Delta and could even threaten the world-famous 
Copper River salmon fishery. Ironically, CAC may not even benefit from 
this potential environmental tragedy. CAC's timber is of modest 
quality, the market is extremely poor, and it will be very expensive to 
build and maintain an access road. An independent economic analysis 
prepared by ECONorthwest of Eugene, Oregon in 1998, concluded that the 
proposed logging project was unlikely to be profitable and could 
actually result in a substantial loss to CAC and its 1900 shareholders.
    CAC and the U.S. Forest Service are both fully aware of the 
richness of the Copper River Delta and the environmental threat posed 
by a major road project. Nevertheless, they have entered into an 
agreement that allows CAC to plan and develop the project without an 
unbiased environmental impact statement or an opportunity for public 
notice and comment. Instead, CAC has been permitted to conduct its own 
environmental studies under the supervision of Koncor Forest Products, 
the company retained to log CAC's land. While CAC must go through the 
formalities of obtaining a special use permit before it can cross 27 
miles of Chugach National Forest, its activities will not be subject to 
environmental review and public process normally required by the 
National Environmental Policy Act and other applicable laws.
    An appropriate level of environmental review and public 
participation should be particularly important given CAC's dubious 
environmental track record. CAC built the first mile and a half of 
logging road last summer. This section of road crosses private land and 
did not require Forest Service authorization. CAC's placement of a 
bridge across Clear Creek, the first river in the proposed road 
corridor, was very controversial and prompted the Alaska Department of 
Fish and Game to investigate the construction for possible violations 
of state law. More recently, the Environmental Protection Agency is 
investigating potential clean water act violations. Nevertheless, CAC 
has said it plans to build several more miles of road this summer. The 
next section of roadway would cross both private and public lands and 
would necessitate filling gravel in Sheep Creek and bridging Sheep 
Creek, an anadromous and beautiful, fast-flowing braided river. The 
Copper River Delta is simply too important culturally, economically, 
and environmentally to authorize development without the careful 
consideration required by the nation's environmental laws.
    Indeed, full environmental review and public input is especially 
critical now. The Forest Service is in the process of updating its 
management plan for the Chugach National Forest and, in response to 
strong public sentiment, is considering recommending portions of the 
Delta as a special management area. It would be inappropriate, and a 
blow to every citizen with a legitimate interest in the Copper River 
Delta, to authorize an easement without taking the time to ensure that 
the environmental effects of road construction will be minimized.
    CAC is not entitled to exercise its rights without regard to the 
rights and laws of other citizens of this country, especially without 
regard to the rights of its own shareholders. The original intent of 
the CNI Agreement was to provide access for CAC to its in-holdings--but 
not allow CAC the right to restrict public access through its private 
land once a public road is built. If allowed, a precedent will be 
established that ANCSA corporations can override the entire purpose and 
intent of the Federal Government that protects the public interest, and 
in the process evaporate public laws by enacting special interest 
legislation.
    Until a thorough and independent environmental impact statement is 
completed, and CAC obtains the normal permits and authorizations, we 
must oppose any bill that forces the USFS to issue an easement in 90 
days and to approve construction activities no matter how ill 
conceived. Sound public policy dictates extreme caution. The Copper 
River Delta is an extraordinarily complex and fragile ecosystem. It was 
created by forces of nature over tens of thousands of years and, once 
destroyed, can never be recreated by human beings. No compensation or 
restoration could ever replace the Copper River Delta back to its 
pristine state. The Delta should be treated with the care reserved for 
any other international treasure--preserved, not exploited with minimal 
environmental review and public input.

Title II--Cemetery Sites and Historic Places

    This section is designed to determine the outcome of a U.S. 
District Court lawsuit currently pending between CAC and the USFS, 
filed on May 19th, 1999. This bill would give CAC the right to obtain 
historic areas and cemetery sites from the Federal Government after the 
ANCSA village corporations agreed to protect these culturally sensitive 
area's using Exxon Valdez Oil Spill restoration funds. Ironically, 
these culturally sensitive lands have more protection now than when 
they were owned by the village corporations, however the actual titles 
to the archeological, historical and cultural resources still belongs 
to each of the village corporations because they were reserved at the 
time of conveyance.
    The Eyak Preservation Council and Eyak Traditional Elders Council 
has never agreed to the fee simple title component to these 
``restoration acquisitions.''
    We have always believed that conservation easements (development 
restrictions), could have met the goals of restoration without 
demanding title to our Native lands. If Congress would like to fix this 
restoration flaw and reverse the fee title acquisition and apply 
conservation easements--then, do it, but, don't let these ANCSA 
regional's take what they never deserved to own in the first place.
    According to ANCSA, CAC has certain undeniable rights. However, we 
believe it is premature for Congress to decide the issues raised in 
H.R. 2547 without first allowing the Federal court to issue a ruling. 
Leaving aside the propriety of asking Congress to intervene on behalf 
of a private litigant, the courts are generally in the best position to 
decide complex issues of statutory construction. CAC has sat around 
since 1991, without taking any action or intervening in any meaningful 
discussion to disrupt this acquisition process, until now. They were 
repeatedly invited to participate, but refused.
    We are also concerned with the practical effects of H.R. 2547. The 
bill focuses on lands sold by ANCSA Native village corporations to the 
Federal Government as part of the ongoing efforts to restore Prince 
William Sound to its pristine pre-spill condition. The ANCSA village 
corporations, whose shareholders are also shareholders of regional 
Native corporations such as CAC, voted to approve the sales and were 
somewhat reasonably compensated. Allowing CAC to reclaim the properties 
(apparently without payment) would create a windfall for some ANCSA 
regional corporations and would threaten the integrity of the Exxon 
Valdez Oil Spill restoration efforts.
    The Native American Graves Protection and Repatriation Act, the 
American Indian Religious Freedom Act, National Historic Preservation 
Act and Alaska State Historic Preservation Act establishes a process 
for protecting culturally sensitive lands of Alaska Natives that were 
acquired by the Exxon Valdez Oil Spill Trustee Council. In actuality, 
these cemetery sites and historic lands now have state and Federal 
protections that were not afforded to Alaska Natives under ANCSA. A 
clearcut example is when the Eyak Corporation clearcut our Eyak village 
and burial sites along the Eyak River in 1992.
    If Congress finds under section 14(h)l of ANCSA, that the Secretary 
has the authority to withdraw and convey to the appropriate regional 
corporation fee title to existing cemetery and historical places, and 
pursuant to section 14(h)7 of ANCSA, lands located within a National 
Forest may be conveyed for the purposes set forth in section 14(h)l of 
ANCSA--then, why not incorporate into this legislation, that section 
14(c)l of ANCSA be carried out by these concerned ANCSA regional 
corporations. And that is, that our ancestral lands of Alaska's Native 
people be reconveyed to the Alaska Native people immediately, once the 
regional corporations receive title from the Federal Government.

Title III--Forest System Land Management

    This section of H.R. 2547 attempts to amend the National Forest 
Management Act and other laws prescribing the process for developing or 
revising national forest plans. Specifically, it would require the 
Secretary of Agriculture to ``coordinate'' with CAC and other ANCSA 
Native corporations by, among other things, ``assessing the impacts of 
Alaska Native Corporation land use plans on National Forest land and 
resource management planning, and determining how to address those 
impacts'' and ``Identifying conflicts between National Forest land and 
resource management plans and the land use plans of Alaska Native 
Corporations, and considering alternatives for resolving those 
conflicts.'' We oppose this section for three reasons.
    First, changes to existing practice are unnecessary. The U.S. 
Forest Service is required by law to provide interested parties with 
ample opportunity to influence the development or revision of a 
national forest management plan. The revision of the Chugach National 
Forest land management plan, which apparently prompted this bill, is a 
good illustration. The U.S. Forest Service has utilized an extensive 
public process involving dozens of open meetings for all affected stake 
holders. Notably, CAC representatives have attended and participated in 
many of these public meetings.
    Second, the ``coordination'' required by H.R. 2547 would give CAC 
undue leverage in which to influence forest plan revisions. National 
forests are supposed to be managed for the benefit of all Americans and 
to accommodate multiple uses. H.R. 2547 requires the Forest Service to 
work around CAC's development plans and gives the corporation a 
privileged status that is inconsistent with the public purposes of 
national forest land.
    Finally, H.R. 2547 treats similar parties unequally. There are many 
individuals businesses and private entities other than Alaska Native 
corporations, that have lands ``which are intermingled with, adjacent 
to, or dependent for access upon National Forest System lands.'' A 
fundamental tenet of legislation is that it should be fair and even 
handed. H.R. 2547 is neither.
    This bill would also give ANCSA Native corporations ``preferential 
treatment'' to determine land status and zoning processes for 
environmentally and culturally sensitive lands that the entire public 
should be a part of, including CAC's shareholders. CAC has never 
provided a ``land use plan'' for its CAC shareholders that shows not 
only the environmental impacts but, the economic impacts of CAC's 
natural resource extraction projects. Nor, has CAC ever created a 
process in which to identify and settle internal conflicts with its 
distinct tribes, or attempted to settle ANCSA section 14(c)l re-
conveyance claims of its 1900 shareholders.

CAC's Eyak Shareholder Concerns

    As ANCSA shareholders, we Eyak Natives feel it is necessary for 
Congress to understand that we are not being well served by CAC or the 
Eyak Corporation. ANCSA was a way of creating dependency by Alaska 
Natives on the ``money culture.'' Also it is important to point out 
that the ``access issue'' has nothing to do with inherent rights of 
Chugach Natives--it is a way for CAC to gain access to our ancestral 
land and exploit its abundant natural resources.
    After oil was discovered on the north slope in the 1960's, and as 
the construction of the pipeline was proposed, it was deemed necessary 
to settle the Alaskan Indian land claims. ANCSA's original intent was 
to settle these land claims, in the simplest of terms, by transferring 
Indian land claims into ``for-profit only'' corporations. Approximately 
500 Alaskan Natives voted on ANCSA, out of a population of over 65,000 
Natives at the time. We are the only minority race of people in America 
who have been forced into corporations in order to receive a ``just and 
fair land settlement'' from the Federal Government.
    Unlike the lower 48 states, where the Indian problem was dealt with 
by creating ``reservations'' (land reserved for Indian people), the 
Indigenous people of Alaska were deprived of sovereignty over their 
ancestral land and inherent rights by being placed in corporations and 
given non-transferable stock. 100 shares were issued to ``applicable'' 
Indigenous people in 1971, with no new shares to be issued, according 
to the ANCSA law. Shareholders with less than 100 shares are not 
allowed to vote. Shares are transferred by virtue of inheritance.
    It is only a matter of simple math to realize that ANCSA was 
designed to take the power and land away from Alaska's Indigenous 
people over time, therefore creating a legalized form of cultural 
genocide. ANCSA for-profit corporations also jeopardize Alaska Native 
ancestral lands, because the land is either clearcut, stripmined, 
drilled or sold--allowing cultural ecocide. If Congress wants to truly 
help Alaska's Native people, in this case CAC, then it should enact 
legislation that benefits all CAC shareholders equally, while providing 
opportunities and choices to natural resource extraction--as the only 
fix-all to corporate failings. CAC's entire history is filled with 
corporate mismanagement, poor/bad judgment by Board of Directors (CAC 
has yet to recover from it's 91' bankruptcy) and tens of millions of 
dollars in net operating losses.
    An immediate GAO investigation of all the ANCSA regional 
corporations should be implemented by the House Committee on Resources, 
starting with CAC. These findings would give Congress the information 
it needs to make educated, timely and sound decisions as to how to 
proceed with proposed ANCSA legislation or ANCSA implementation 
amendments.
    ANCSA is a social and cultural experiment that has failed miserably 
by any stretch of one's imagination. Congress needs to rewrite ANCSA 
and implement laws that helps preserve our inherent rights--laws that 
also compliment our inherent rights as stewards--rather than just ANCSA 
shareholders of our land.
    The Eyak Preservation Council and the Eyak Traditional Elders 
Council wants to emphasize to Congress that ANCSA corporations has not 
and does not represent the true interests and concerns of Alaska's 
Native people. Ironically, it is ANCSA corporations that are the one's 
who can ultimately protect subsistence rights and our inherent rights 
of self-determination for Alaska Natives. By preserving our ANCSA lands 
and keeping them ``roadless and wild'' will preserve our unique way of 
life that has provided for us since time immemorial.
    It is our wish that Congress stay out of Native politics and let us 
settle our intra-corporate affairs on our own. CAC has never proven to 
its shareholders that it is worthy of deserving access to our ancestral 
land in the Copper River Delta region. CAC has been fiscally, 
environmentally and culturally irresponsible ever since they were 
created in 1971. Many of our shareholders are embarrassed to report 
that we have never received dividends from any of CAC's ill conceived 
development schemes. Congressional legislation should help us become 
solvent, not liquidate our remaining assets, drive us further into 
poverty and place us right back into the bankruptcy court.
    This legislation is unacceptable and unnecessary. It allows CAC to 
have dominion over our ancestral land and inherent tribal rights. 
Congress should be enacting legislation that strengthens our bond to 
our ancestral land and clearly enhances our right to self-determination 
as independently recognized tribes in Alaska.
    I would offer that there is not a place in Indian Country on the 
planet, where a road has not permanently changed the management of fish 
and wildlife, allowed irresponsible natural resources development and 
adversely affected Native people's subsistence lifestyle forever.

Conclusion

    We and numerous other Alaska voters strongly oppose H.R. 2547. This 
bill takes a slap-dash approach to complex situations in which many 
Alaskans and numerous ANCSA corporations have a passionate interest. 
This is particularly true with respect to the Copper River Delta. It 
requires finesse, not a sledge hammer, to responsibly evaluate a 55-
mile road project through one of the world's intact and most-unique and 
spectacular wetlands.
    There are numerous stake holders and worldwide consumers who depend 
on the returning Copper River Delta salmon. There is a value to intact 
wild places and what they mean to the world--wild places are priceless 
and simply become more valuable each day as more wild places are 
developed and lost to progress.
    Protected watersheds are some of the most valuable and rich 
ecosystems left on our planet. Last year, when Congress decided to 
assist the Chalista Corporation, this was a similar situation, near 
bankruptcy, both financially and spiritually--Congress intervened and 
basically created a conservation unit that helped them financially and 
socially.
    We would obtain a greater financial and social return in preserving 
the Bering River/Carbon Mountain tract in its pristine state, in 
perpetuity--while maintaining our ability to preserve our needed 
traditional subsistence activities and unique way of life on the Copper 
River Delta.
    By helping us to implement a comprehensive conservation easement 
(without any fee title transfers) and helping preserve the entire 
Copper River Delta region for all future generations to enjoy is the 
best way to settle this controversial dilemma on the Delta.
    Thank you for this opportunity to comment.

    [GRAPHIC] [TIFF OMITTED] T0581.020
    
    The Chairman. I beg to differ with you. This is a process. 
Sheri is a Native person, Edgar is a Native person, you are a 
Native person. I don't think that you ought to differentiate 
and say they are not Native people.
    Mr. Lankard. The corporation does not represent Native 
people, that is what I said.
    The Chairman. They are elected by Native people. It is an 
elective process.
    Mr. Lankard. I agree to disagree with you, sir.
    The Chairman. It is an elective process?
    Mr. Lankard. Yes.
    The Chairman. Edgar is elected by your people?
    Mr. Lankard. Like I said, we are a superminority group.
    The Chairman. And they don't vote with Chugach at all?
    Mr. Lankard. Yes, we do vote, but whenever we do vote, our 
numbers do not carry any weight.
    The Chairman. Of course not, you are the minority. If you 
want to change the system, you ought to become the majority.
    Mr. Lankard. Yes, I am planning on running for the board of 
directors.
    The Chairman. And if you get elected, you will have a 
voice. I thank you.
    Let's go back to where and why we are all here. We had this 
hearing last year. I think most of you were here. Mr. Vento, we 
moved the bill out of committee, and this is an Act of 1971 and 
an Act of 1982, an inability of the Forest Service to come to a 
conclusion. We can argue about whether it is right or wrong, 
but the fact is that there is a requirement.
    I just want to know one thing. Edgar or Sheri, has Chugach 
Natives met all of the obligations of the 1982 Act?
    Ms. Buretta. Yes, sir.
    The Chairman. You had to pay for the full cost of the 
environmental impact statement?
    Ms. Buretta. This is correct.
    The Chairman. Is that common practice? Does anyone know 
whether any other Native corporation had to do this?
    Ms. Buretta. If I can refer to our legal counsel.
    Mr. Giannini. Thank you, Mr. Chairman.
    The environmental documents which the forest supervisor 
deemed necessary were paid for by Chugach Alaska. We estimate 
that the cost was over $1 million, and then we paid $100,000 
under a collection agreement for the Forest Service to 
participate in them, read them and review them.
    The Chairman. The Forest Service has agreed with the 
findings and have signed off on this agreement?
    Mr. Giannini. Prior to final publication of the 
environmental documents, we received a letter from people in 
Anchorage at the Forest Service that said it was complete both 
in form and content and--it was an interdisciplinary team 
review toward the end, and everybody agreed that it was the 
best route, and all questions had been addressed. And we 
understood that within 45 days of the submission of those 
documents, we would receive the issuance of a recordable 
easement document.
    The Chairman. Let's go back to the selling of the land. 
EVOS bought how many acres of land?
    Ms. Buretta. EVOS has purchased lands from the village 
corporation, the surface estate of which we own the subsurface.
    The Chairman. How many acres?
    Ms. Buretta. Approximately 235,000.
    The Chairman. When they purchase that land, do they 
transfer title to the National Forest Service?
    Mr. Giannini. Some land has been purchased in fee simple, 
and title has been transferred to the Forest Service, some to 
the State and I believe some to the Department of Interior. I 
am not entirely sure.
    Some of the land was not purchased in fee, but instead what 
they purchased were what they call conservation easements, 
which include development rights. In other words, the property, 
while remaining--bear title remaining in the village 
corporation, the rights of development are completely----
    The Chairman. My understanding is that--and the Forest 
Service has communicated to me--that they want a Federal 
easement for the whole road, otherwise you have to enter into 
an agreement with your land as Federal easement?
    Mr. Giannini. Yes. Mr. Chairman, under the 1982 agreement, 
there was a provision whereby as the government deeded the 
property out to the Native corporation, it would reserve 
easements. And, in fact, on the particular Carbon Mountain 
tract, there were several routes of easements that were 
reserved. What they have told us is that they now believe that 
we have an obligation to convey yet another easement across the 
proposed route of the mainline road once it leaves Forest 
Service land and enters our land.
    The Chairman. You have agreed to build the road and pay for 
the road and grant public access. Why do they want a Federal 
easement?
    Mr. Giannini. The 1982 agreement, Mr. Chairman, requires 
that we build the road and we maintain the road, but that the 
public have access on the road on Forest Service land. Now they 
are saying that they want to have public access on Chugach 
Alaska land on the mainline road because there are several 
pieces of that road on our land which would also access Forest 
Service land.
    While we have said we will not convey further easements, we 
have agreed that as a condition of the easement, we would allow 
public access on the road that we build on our land.
    The Chairman. Why are they insisting on that? They have 
said, we have given the chance to do it. We are not the ones 
dragging our feet, Chugach is doing it. As far as I can find, 
the only problem that they have is this easement. Why do you 
think that they are insisting upon that provision?
    Mr. Giannini. We believe that there is some danger that 
once they request this easement, and once we grant them an 
easement and they have a Federal property interest on our land, 
that it would basically federalize an undertaking on our land 
that requires additional studies.
    The Chairman. Otherwise not issue the right of way?
    Mr. Giannini. Yes, and delay it further so that we would be 
forced into the position of having to sell the land or a 
conservation easement.
    The Chairman. My time is up.
    The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly 
would like to echo your sentiments expressed earlier about the 
funeral services that our colleagues are currently attending of 
our late member, George Brown. I want to say with all due 
respect and reverence for this great American, it has been my 
privilege in the past 11 years knowing him.
    Having said that, I want to thank you and to commend you 
for holding this hearing on this legislation that we find 
ourselves now in, an example of--not just in terms of the 
easement process, Mr. Chairman, but it goes a lot deeper and a 
lot farther, in my humble opinion, on how we have gone about 
treating the rights of our first Americans, especially in the 
great State of Alaska.
    I do have several questions that I want to ask the members 
of the panel. As expressed earlier by Mr. Lankard, there seems 
to be some concern that the Eyak Athabascans are not 
represented in his nine-member board. I would like to ask the 
panel, in the election process of the nine-member boards, 
aren't all the four groups represented in the membership of the 
board, of the corporation, Mr. Lankard?
    Mr. Lankard. No, they are not. When it comes to voting, it 
is not like we make sure that we have an Eyak or Tlingit or 
Aleut or Chugach representation.
    Mr. Faleomavaega. So there is no proportional 
representation in your election process?
    Mr. Lankard. No, neither in the village as well.
    Mr. Faleomavaega.  Ms. Buretta, do you want to respond to 
this?
    The Chairman. Would the gentleman yield?
    Mr. Faleomavaega. Yes, sure.
    The Chairman. I have a letter here from the president of 
the native village of Eyak, which acknowledges Mr. Lankard is a 
respected member of our tribe. However, he is not a member of 
our tribal council, nor is not a spokesman for our tribe. The 
native village of Eyak does support H.R. 2547, the village 
itself does. I just want to make that clear.
    Mr. Faleomavaega. And I appreciate that, Mr. Chairman.
    Mr. Lankard. Could I clarify that?
    Mr. Faleomavaega. Yes, go ahead.
    Mr. Lankard. The native village of the Eyak tribal council, 
the five Eyak tribal chiefs, are all of Aleut descent, so it is 
only in name.
    The way that it works under the Bureau of Indian Affairs, 
it is the traditional government. So any traditional 
government, the 600-some members, they elect their own 
officers.
    So when it comes to election, again, we are a super 
minority so we don't even have status within our own village 
council as well.
    Ms. Buretta. I would like to just clarify.
    Mr. Faleomavaega. Please, could you respond to that, Ms. 
Buretta?
    Ms. Buretta.  The native village of Eyak tribal council is 
the federally recognized tribe for the Eyaks, and they are the 
designated tribe.
    Mr. Lankard. Federally-recognized traditionally.
    Mr. Faleomavaega. On the 1,900-shareholder membership on 
CAC, that represents obviously all four groups. So we are 
talking about a total population of what, of the Chugach 
Nation, if I would describe it in that format?
    Ms. Buretta. There are approximately 1,900 shareholders 
that we represent.
    Mr. Faleomavaega. The corporation, right?
    Ms. Buretta. Yes.
    Mr. Faleomavaega. But I am talking about what is the total 
population of the Eyaks, the Chugachs, the Tlingit, the Aleuts, 
that make up the Chugach?
    Ms. Buretta. We also have descendants that--1971 was the 
cut-off date for allowing native people to belong to the 
corporation, but there are a large number of descendants that 
are also considered part of the corporation.
    Mr. Faleomavaega. Now, maybe I am losing my question to 
you. The tribal roles for these four groups make up the total 
Chugach Corporation, or the Nation, if you call it. What is the 
total population that we are talking about?
    I am not talking about the 1,900 shareholders. I am talking 
about the total population of all of these four groups that was 
indicated earlier, the Chugachs, the Tlingits, the Aleuts, the 
Eyaks. What is the total population that we are talking about 
of the Nation?
    Mr. Blatchford. If I might, Mr. Chairman, respond?
    Mr. Faleomavaega. Please.
    Mr. Blatchford. The total population within the Chugach 
region, the native population is much larger than the 1,900, 
because we have descendants of shareholders, descendants of 
shareholders, and all of those Alaskan natives who were not 
alive prior to December of 1971 are not shareholders, original 
shareholders, but they can be granted shareholder status by 
their parents, gifts of their 100 shares that the parents have 
to their children. Okay?
    Mr. Faleomavaega. Am I making the question so complicated? 
All I want to know is the total population of the Chugach 
shareholders. Twenty thousand people?
    The Chairman. No. The shareholders, I would say, are about 
2,000 shareholders.
    Mr. Faleomavaega. Right.
    The Chairman. Now the descendants, I don't know whether--
and we will have to figure that out with this new census that 
comes up.
    Mr. Blatchford. Mr. Chairman, if I may respond. Again, the 
total native population of the Chugach region probably 
represents around 3,500 people. That is shareholders and 
descendants of shareholders.
    Mr. Lankard. And as far as Eyak descendants, there are 132 
of us.
    Mr. Faleomavaega. Mr. Chairman, the experience that I seem 
to gain in meetings and in trying to understand, for this 
member in resolving all the problem that has come to the 
forefront of this corporation, duly-elected members asking for 
an easement and the recalcitrance of the Forest Service and 
other agencies, they have been dragging their feet for the past 
10 years. And I would like to ask, again, the members of the 
panel: Is there for some reason--personality problems in the 
administration--or is there some missing portion of the 
agreements that were made in the 1982 settlement that has 
caused this thing to drag on now for 10 years?
    Ms. Buretta. Peter Giannini will answer that question.
    Mr. Giannini. Mr. Chairman, we have enjoyed for the last 
several years a very fine working relation with the local 
people in the Chugach National Forest. The new forest 
supervisor and the people he has put on this have really worked 
hard, and we are really pleased with that relationship.
    I cannot say that it has been that way. I think Mr. 
Blatchford's comments indicated that in the 1970s and 1980s 
particularly there was strong resistance. We think that the 
million dollar study, which was done by the previous forest 
supervisor, was----
    Mr. Faleomavaega. So the supervisor does approve all the 
things that have been done, but when it comes to Washington it 
washes--is that basically what we are looking at?
    The Chairman. If I can, and your time is about up and we 
will come back to you, that is exactly what is happening.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    The Chairman. I mean, it comes right out of DC. They want 
to force this group of native people to sell their land because 
of environmental pressures.
    Mr. Faleomavaega. Thank you.
    The Chairman. And that is a fact. That is not a joke; that 
is a fact. EVOS has done that--$900 million. What they have 
done is criminal. That money was granted to the board of 
trustees to replenish the wildlife and the fish that were hurt 
because of Exxon Valdez, and what they have done is set out and 
bought native land, eradicated native rights.
    Mr. Faleomavaega. Will the chairman yield?
    The Chairman. Yes.
    Mr. Faleomavaega. And out of this EVOS fund of $900 
million, has there ever been any consideration given to the 
economic losses of the Chugach Corporation?
    The Chairman. What happens is not to the corporation. They 
go into the village and wave that money over and over. We have 
cases where the village has said, we do not want to sell our 
land and yet they keep coming back and coming back and coming 
back and waving the big dollars. And by the way, the reason 
Chugach hasn't been able to pay any dividends is because they 
haven't been able to do anything because they can't get title 
to their land, which was guaranteed to them.
    The gentleman from New Jersey.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Chairman, I hear three sets of issues here. One set has 
to do with the environment. One set has to do with the economic 
viability of potential future operations on this 73,000 acres 
and the other set of issues has to do with an agreement between 
the Chugach Alaskan Corporation and the Department of Interior.
    Is that a fair analysis, Mr. Blatchford?
    Mr. Blatchford. If I may respond, Mr. Chairman, I would say 
it is a fair analysis. Going back to the 1982 agreement, in 
answering the previous question, there is a substantial lack of 
good faith and there is a substantial lack of respect for 
Alaskan natives, I believe, in the Chugach region. We have 
tried very hard to keep that not for sale kind of----
    Mr. Saxton. In 1982, your corporation made an agreement 
with the Department of Interior; is that right?
    Mr. Blatchford. In 1982, Congressman, we did--in good 
faith, we made an agreement and an integral part of that 
agreement was access to our lands.
    Mr. Saxton. And there were--what I hear you saying is there 
were two parts to that agreement. One was to convey title to 
the land, which they did, right?
    Mr. Blatchford. Right. That is correct.
    Mr. Saxton. And the second part of that agreement, which 
was a signed contract between the parties?
    Mr. Blatchford. It was a signed contract between the 
parties, between the Chugach natives and the United States 
Government.
    The United States Government guaranteed us access across 
public lands. We gave up our claims to those public lands in 
exchange for 73,000 acres in the Carbon Mountain Tract, and we 
could not develop that land unless we had access to it, an 
easement.
    We would not--I believe we would not have agreed to the 
1982 agreement had we believed that the United States 
Government was acting in bad faith.
    Mr. Saxton. Was there anything in the agreement about 
environmental studies relative to the establishment or 
construction of the road?
    Mr. Giannini. Mr. Chairman, Congressman, yes, there is. It 
says that although under ANILCA, the--this ANCSA conveyance 
would be exempt from NEPA, that the forest supervisor can deem 
the preparation of NEPA-like environmental documents necessary, 
and the previous forest supervisor did deem documents 
necessary. And the pile of documents at the end of the counter 
there, that is the study that took place.
    Mr. Saxton. And those documents--those studies have been 
done, the documents have been completed and they have been 
accepted by the Forest Service; is that right?
    Mr. Giannini. Yes, they have.
    Mr. Saxton. So you have done everything that you agreed to 
and yet the Forest Service hasn't done everything it agreed to; 
is that correct?
    Mr. Giannini. That is exactly how we view it, yes.
    Mr. Saxton. Well, Mr. Chairman, I was in the real estate 
business for 20 years and we handled thousands of contracts, 
and people get in trouble if they don't--if they don't do what 
they agree to do in the contract.
    I find it strange that the Forest Service had agreed in 
1982 to do these things, and the CAC did what they agreed to 
do. I just have a hard time understanding how it is that the 
Forest Service can just not do it.
    Now, their motive, their motive, may not be so mysterious, 
from what I am hearing. Because there is a pot of money that 
was created subsequent to the Exxon Valdez oil spill to 
purchase lands. There is money available for purchase if 
somebody is a willing seller; is that correct?
    Mr. Lankard. Not out of the Exxon Valdez oil spill 
restoration monies. They have refused to extend the boundary to 
include the Bering River region. So none of those monies, which 
are about $55 million, that were set aside for habitat 
protection, can be used.
    Mr. Saxton. Well, Mr. Blatchford, there are monies 
available for the purchase of this land; is that correct?
    Mr. Blatchford. I believe, Mr. Chairman, Congressman, I 
believe that there is an agenda out there to force Chugach 
natives to sell its land to the Federal Government.
    I believe this is an extinguishment effort. I think that we 
have seen this--I saw it. I experienced it back in the 1970s 
when I was coming back to Washington, DC. There was a strong, 
strong opinion that lands should not be conveyed to native 
Alaskans, and then within the Chugach region, once the land was 
agreed to, they agreed to slow the process.
    How they have done it, Mr. Chairman, to the Congressman, is 
that they have prevented any development; and when there is no 
development and no effort to generate any profits, there are no 
dividends. If there are no dividends, there is no--there is 
dissension within our shareholder ranks, our Alaskan natives. 
They are asking what the corporation has done.
    What the Forest Service, I believe--what the Federal 
Government has done is to fan the waves of dissension by 
saying, look, you have not done anything; therefore, you have 
not received anything from your corporation. Therefore, the 
only time you are going to get anything is if you sell the 
land.
    What is so sad about it, Mr. Chairman, to the Congressman, 
is that the land has been sold at a ridiculously low price, 
between--an average--we haven't figured out the average, but it 
is between $200 and $400 an acre in the most pristine area of 
Prince William Sound.
    I think the least that the Federal Government can do is to 
have a little respect for Alaskan natives and have a little 
faith that we can take care of the land just as good as anybody 
else.
    We need a little respect here, Mr. Chairman, Congressman.
    Mr. Saxton. Mr. Chairman, thank you very much.
    The Chairman. Thank you.
    The gentleman from Washington State, I believe, was the 
next here, and then Mr. Vento.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Lankard has expressed some criticism of some decisions 
the corporation has made in the past. I am going to be asking 
you some questions about the corporation's intent, but in doing 
so, I want to make sure that I believe wholeheartedly in Mr. 
Blatchford's comment that the tribe is deserving, number one, 
of respect legally; and two, I believe that the corporation has 
the right to make mistakes.
    And if it has made mistakes in the past--I am not agreeing 
with Mr. Lankard necessarily; I don't know the situation--but 
if it has made mistakes in the past, it has the right to make 
mistakes. These are decisions about its own land, and it has a 
right to make an investment decision just like any other owner.
    I am going to ask you some questions about your intent, but 
I want to make sure at least one member--and I think a lot of 
the members feel it is important to respect your decisions in 
this regard for your own purposes, and I just want to tell you 
personally that that is how I feel about this.
    Let me ask you about your feelings about prospective 
purchases or sales. I think you are right. I don't know a lot 
about this issue, but I think there are people interested in 
trying to purchase conservation easements, in some sense to do 
this rather than harvest the timber on this land. From what 
little I know about that, that seems to be accurate.
    What is the corporate feeling about that if, indeed, the 
corporation could receive the same net economic benefit from a 
sale of conservation rights as opposed to harvest? Does the 
corporation have it on record or really addressed that issue? 
If it could, in fact, have the same net economic benefit, would 
it make a difference to the corporation in its decision?
    Ms. Buretta. I would like to respond to that, Congressman.
    The position that the board of directors has taken with 
this issue, and all of our land issues, is that our land is not 
for sale; and until we get the rights that we bargained for 
under the agreements in 1971 and again in 1982, we are not in a 
position to make any considerations until we have achieved 
those rights that we have bargained for.
    I don't know how--you know, how much more clear that can 
be. We have an obligation to our shareholders to fulfill what 
was bargained for, and that is our intent.
    Mr. Inslee. Is it--I am sorry, Mr. Blatchford. Go ahead.
    Mr. Blatchford. With the permission of superior, Mr. 
Chairman, in response to the question there, I chair the 
finance committee of Chugach Finance Corporation and we have 
done no economic analysis, no financial analysis, of any 
purchase of Chugach's land. Simply that we look at the 
opportunities for shareholders, Alaska natives, descendants of 
shareholders. We are there for the best interest of the Alaska 
native people.
    We have done no financial analysis, no economic analysis, 
of any money that we might receive from any sale of land for 
the simple reason that we have not considered the sale of 
native land in our region, period.
    The Chairman. Would the gentleman yield for just a moment?
    Mr. Inslee. Certainly.
    The Chairman. I think one of the problems they are faced 
with is that if the Forest Service keeps dragging their feet, 
and they don't have access to the land, then they will be 
required to sell the land. Once they get access, and that is a 
right, and once they have full title to their land, then that 
is when the negotiations should take place.
    But right now they are unable to negotiate. They can't put 
a price on it because it really is of no value. If you can't 
get to it, it might as well be on the moon.
    Mr. Inslee. Well, let me ask a question, and if you give me 
a candid response I would really appreciate it. It is kind of a 
sensitive question, I suppose.
    I assume that the corporation is reluctant to even consider 
this issue because they feel that without access they will be 
low-balled on the purchase price and that is of great concern 
to the corporation, as opposed to a situation where the 
corporation, for some philosophical reason, would always reject 
a sale of conservation easements.
    The reason I have that belief and assumption, is that the 
corporation did sell its subsurface rights several years ago 
and that, therefore, it is not a philosophical objection that 
the corporation would have; it is more of an economic one, that 
without the access, they think they will get low-balled.
    Is that a fair statement?
    Mr. Blatchford. Mr. Chairman, to the Congressman, I don't 
think that is a fair statement. I think that the corporation 
simply says that we are not going to sell our land. The Bering 
River Coalfields, the Carbon Mountain Tract is not for sale. 
Sure, we entered into some business development prospects with 
a company from Korea several years ago, but we remain adamant 
that the land is not for sale.
    Just let me address, Mr. Chairman--talk about the kinds of 
dissension that results from lack of return from the 
corporation. Yes, shareholders become frustrated because they 
are told that this is a corporation; therefore, you are 
entitled to a dividend. We are expected to go out and utilize 
the opportunities within our natural boundaries, the Chugach 
native region, because we want to expect some sort of return 
for our shareholders.
    Now, a few years ago, it was timber. A few years ago, it 
was fisheries. That doesn't foreclose the opportunities of 
fisheries or timber, despite what happened, because we had an 
unnatural incident that totally surprised and shocked the board 
of directors and the Chugach native region, and that was the 
Exxon Valdez running aground on Blight Reef. From 1971--from 
1971 to 1982, and I got my first introduction, Mr. Chairman, to 
Congressman Mo Udall with this same issue. When Blight Reef 
came into the international spotlight, Chugach was spending 
hundreds of thousands of dollars just on what we thought would 
be our opportunities in the Chugach region. Those opportunities 
were extinguished when the Exxon Valdez hit the reef. From 1971 
to the settlement time, 1982, we spent well over a million 
dollars trying to convince the Congress of the United States to 
convince the Department of the Interior and the Department of 
Agriculture to convey to us what we were entitled to, an Act of 
Congress, a binding Act of Congress on the United States 
Government, to honor its good-faith commitment to native 
Alaskans, Alaskan natives.
    It kind of reminds me, Mr. Chairman, if I may be so bold as 
to say this, but in 1830 the Congress of the United States 
permitted the removal of all Indian tribes east of the 
Mississippi River, and then on those lands, they were taken; 
they were removed off of those lands.
    Well, we found out with the 1989 Exxon Valdez oil spill 
that it became kind of like that. It became the Chugach Native 
Removal Act.
    Sure, there is dissension within our region, and there will 
always be dissension within our region. We have thousands of 
people that we are responsible for; and you are all 
Congressmen, you are all elected by the people, so you know 
what dissension is.
    We appreciate it.
    The Chairman. I thank the gentleman.
    The gentleman from Minnesota, I believe, is next.
    Mr. Vento. I think the gentleman from New Mexico.
    The Chairman. Mr. Udall then. Go ahead, Mr. Udall. We are 
not going to waste time passing this baton back and forth.
    Mr. Udall. Thank you very much, Mr. Chairman.
    Mr. Lankard, you were about to comment on that sale issue 
at one point.
    Mr. Lankard. Yes.
    Mr. Udall. Could you go ahead?
    Mr. Lankard. A point of clarification: A conservation 
easement is purchasing the development restrictions, and not 
fee title to one's land. I feel that if Congress is so 
concerned about that, then they should go in and reverse those 
fee simple acquisitions and make them acquisitions of 
development restrictions only, where they could have still met 
their goals of restoration without having to buy the title of 
native land away from the people.
    So what they are confusing this issue with is--is that what 
we are trying to do here is create a conservation alternative 
to the natural resource extraction projects that have landed us 
in bankruptcy. So we feel that if they are allowed to build a 
road across the Delta, and they are allowed to log this land; 
and since they haven't proven through an economic analysis how 
they are going to make any money, we see we are just going to 
be further driven into bankruptcy.
    You know, I agree that corporations have the right to make 
mistakes, but I don't think that they should be allowed to 
repeatedly make bad decisions that affect all of the people, 
because 90 percent of the people who live in the Cordova region 
and along the coastline live a subsistence life-style.
    So I think it is really important that we look at 
alternatives and not just have blinders on and say that this is 
an access issue and we need to develop our land. ANCSA didn't 
say that. It said that it was to help the native peoples, and 
development obviously has not.
    Mr. Udall. You say in your statement at the end that you 
believe that implementing a comprehensive conservation easement 
without any fee title transfers and helping preserve the entire 
Copper River Delta region for future generations would be the 
best way to go. Could you describe why you believe that?
    Mr. Lankard. Well, if you look at the economic restoration 
that Mr. Murkowski and Mr. Young are so concerned about in the 
Chugach region, in the four villages that have accepted deals 
with the trustees' council, the Exxon Valdez oil spill trustee 
council, that has poured over $100 million of economic 
restoration into the region where we would not have received 
that any other way.
    So I think as far as helping the native peoples out, I 
think that the alternative is this: That rather than clear-cut, 
strip mine, oil drill and sell the land, if we were to do 
conservation easements, and again purchasing the development 
restrictions away from these native corporations, it would do a 
number of things. It would preserve the land in its intact 
state; it would show that wild places do have value; and at the 
same time, it would allow the people who continue to make a 
living off of the Delta, the way that it is right now, that 
opportunity way into the future, because these watersheds are 
irreplaceable and especially this one that is as highly 
productive as the Copper River Delta.
    So I feel that the corporation should at least have a 
choice and not be forced to have a road built across the Copper 
River Delta, because the stakeholders--it affects many 
stakeholders, not just the corporation.
    Mr. Udall. So you view this really as a win-win situation 
for the corporation and for the native people that live there?
    Mr. Lankard. Definitely, because again, like I said earlier 
in my testimony, our subsistence life-style makes us some of 
the most wealthiest people on the planet because we are able to 
subsist in the wild rather than in grocery stores. And I don't 
think that a lot of the commercial fishermen in the Sound would 
have been able to survive over this last decade if the Copper 
River Delta Fishery wouldn't have been the catalyst that has 
made their industry stay afloat.
    Because the Sound salmon, the price just plummeted, like 
Mr. Blatchford said. Right after the Exxon Valdez oil spill 
happened, our prices went from a dollar a pound for pinks and 
chums down to around a nickel a pound. So the only thing that 
has held the price and kept people fishing, without going 
bankrupt themselves, is the Copper River Delta Fishery.
    Mr. Udall. Do you view that the corporation has supported 
the native subsistence life-style in the way they have 
operated?
    Mr. Lankard. No. I feel that because of the extraction 
projects that they have been engaged in and the amount of 
losses and the no-dividends that have been paid through these 
extraction decisions, I think reflect that they haven't been 
enhancing our subsistence life-style at all.
    The best thing that they could do is help us preserve our 
lands, preserve our subsistence life-styles, preserve our 
commercial fishing industry and allow the people to continue to 
live off the land the way it is. That is how I think, the best 
they could help us, by leaving the land alone.
    Mr. Udall. Have you viewed the Forest Service as being a 
constructive force in this process?
    Mr. Lankard. I think that the Forest Service has tried to 
uphold and protect the laws, and also they have tried to 
protect the public interest in this case, because again this 
road has to cross 27 miles of public forest. So I think they 
have a fiduciary responsibility to protect the land as much as 
they can.
    As far as the access issue goes, that, I think, has been a 
point of contention. I think that if Chugach Alaska Corporation 
wants to build a road across public lands, then they should, in 
turn, give up access to private lands to cross a public road. 
And I think it goes both ways. They can't have it just one way. 
I think that is what the Forest Service has done.
    Mr. Udall. Thank you very much.
    The Chairman. I think we have also heard the Forest Service 
locally has tried everything possible to make sure this 
happens. It is getting stopped right here in Washington, DC. 
That is number one.
    Number two, I think it has been explained that if they 
insist on having the public easement on the Federal lands, then 
it becomes Federal lands on native lands, taking lands away 
from the natives. Then that opens a whole gamut of new lawsuits 
that can be applied because it is Federal land, thus impeding 
or slowing down the processes of the easement.
    Now, we may disagree--by the way, Mo was a very big 
supporter of the Native Lands Claim Act. You know, I want you 
to remember that. He wanted it to be fully implemented.
    Mr. Udall. Do you think if he was back here today, hearing 
this, he would still----
    The Chairman. He would be very upset with the Forest 
Service and this administration.
    Mr. Udall. I think he would be very upset about some of the 
things he would have heard today.
    The Chairman. Now I want to say one other thing, too, while 
we are at it.
    The idea that this road is going to destroy the fisheries, 
remember there has been a tremendous amount of money put into 
the environmental impact statement, has been signed off and 
there are many different laws that would also preclude that 
from occurring. I am going to suggest that this is a case where 
there are a group of people, primarily stationed in Washington, 
DC, that are trying to harass this small 3,500 group of people, 
2,000 shareholders, and finally buy them out. This is the goal. 
I mean, you know, this is what this is all about.
    You may disagree. It may not be economical, et cetera, et 
cetera. Of course, it is not economical if you don't have 
access. This was the problem with our whole battle over the 
Alaska National Lands Act. We have State lands and native 
lands, and in between we have the Federal; and the Act itself--
I have an amendment that says we shall have access, but every 
time we try to achieve access, we are precluded from getting 
it. It actually makes your land not valuable.
    Now, I again think that if we were to get the access, this 
is just saying--I am not going to put anybody in a box here. If 
the access was granted, if it isn't economical to harvest those 
hemlock, that is another story, but at least they would get a 
fair shot at the true value of that 8,000 acres. Right now they 
have no fair shot at all. I want you to understand that.
    It was set up in 1971. It was to build the corporations, 
nonprofit and profit, and that has been recognized. That is the 
law, and I don't think it is going to be changed.
    The gentleman from Minnesota.
    Mr. Vento. Well, thanks, Mr. Chairman.
    I know there hasn't been--one of the witnesses said there 
hasn't been--Mr. Blatchford said there hadn't been an economic 
analysis of exactly what the results or consequence would be. 
But one of the statements that has been made and one that 
persists is the issue that in order to get that--this easement 
has been off and on.
    This hasn't been a one-position situation since 1982 when 
Jim Watt granted this particular parcel of land under a lawsuit 
issue, incidentally. It wasn't part of ANILCA.
    I think, in fact, leading up to ANILCA, we had every 
effort, including John Dingell tried to make this a wildlife 
protected area, and it came back as a conservation area. It is 
an important wetlands resource, one of the most distinctive in 
North America, as the gentleman from Alaska knows.
    But the issue here is, the total length of the road is 
something like 55 miles, and apparently 30 miles of it is 
proposed to be over the national or Federal lands and the rest 
over village corporation lands. So the issue is, part of the 
road construction has already begun and we have no analysis of 
what the cost of the road is. There are estimates that go into 
the tens of millions of dollars.
    Mr. Lankard, do you have any idea of what the cost of this 
road is? It has been built through some of the corporation 
lands already, near as I can see.
    Mr. Lankard. Yes. If it is flat land and there are no 
bumps, they can build for about $125,000 a mile, but once they 
start going up over any slopes, which they would have to do 
along this road because they are right up against the cliff 
line, the forest line, then it bumps up to $250,000 a mile. So 
then, in past discussions with the corporation, we heard 
anywhere from $3 million to $4 million, and I actually believe 
that it is going to be $20 million to $30 million, and that is 
just to get to where they are going. That does not include the 
number of miles that it would cost to build once they go there, 
which could drive that price even much higher than that.
    I don't think the timber is enough or the quality is there 
to cover the cost of even building the road.
    Mr. Vento. Do you have to pay the trees on top of it? Ms. 
Buretta?
    And pardon me. That is a name I should be able to 
pronounce, I would say.
    Ms. Buretta. Congressman, I would like to point out two 
things on our map here, if I could.
    Can I get somebody to just put up the other map? If you can 
just put that one down.
    If you would note, there is already a road that crosses 
over much of the Delta, that does not affect, to the degree 
that Mr. Lankard has mentioned, any of the fisheries. The 
public is able to enjoy the beauty of that area, and it has 
been there for a long time, without any of this effect that 
they are so concerned about on the environment.
    Mr. Vento. What did you say the cost was of constructing 
the road? That was my question, the new road, the cost of the 
new road that you say you disagreed with his assessment of, 
what the cost is--$125,000, $250,000 a mile?
    Ms. Buretta. If I could let our attorney answer.
    Mr. Vento. Well, yes. Mr. Giannini.
    Mr. Giannini. Thank you. We have estimated that the cost of 
the road from the Copper River Highway to our land would 
probably be somewhere in the $6 million to $8 million range. 
The estimates of $20 million to $30 million, I don't know where 
they come from.
    Mr. Vento. Ms. Buretta, in terms of talking about how the 
public was going to enjoy that, does that mean you are 
interested in giving a public easement on this land?
    Ms. Buretta. Well, the other thing that I wanted to point 
out on the map----
    Mr. Vento. Because about half of it is public and half of 
it is in the native area, right?
    Ms. Buretta. Well, if you look at the map, surrounding our 
area, everything in white is already a park, is already--and 
there are hundreds of thousands of acres of----
    Mr. Vento. But my question, of course, is, if it is a park 
and nobody can get to it, you can't enjoy it. The national 
forest----
    The Chairman. If the gentleman would yield?
    Mr. Vento. Yes.
    The Chairman. In the agreement, they have agreed to public 
access. They just don't want to give a Federal access 
definition, is my understanding, because once you do that, they 
have other problems that could occur that would delay the 
granting of the right-of-way. They have publicly agreed to 
public access on the road.
    By the way, I never understood the Forest Service, where 
they are hung up on this, unless there is something mischievous 
in their minds about delaying the issuance of this deal.
    Don't look at me that way. They can be very mischievous, 
believe me.
    Mr. Vento. I know in your mind, Mr. Chairman, they are.
    The Chairman. In everybody's mind. You had better watch 
out.
    Mr. Vento. Well, I think the other aspect, of course, is 
that since there has been no economic analysis of this--as has 
been pointed out by the chairman, I guess there has been no 
economic analysis of a lot of things that have gone up on the 
Chugach Corporation, based on the dividends. I don't know if it 
is all inability to get access, but the cost of the logging has 
to be added in here, the cost of the roads in this area have to 
be added in; so many other aspects.
    So since you are coming with us and pleading this case as 
an economic problem, I guess we want to understand the 
specifics of it.
    Mr. Lankard?
    Mr. Lankard. Yes. Historically, the way that native 
corporations have done logging business in the past is they 
have paid loggers to log the land and paid people to build the 
roads. So if you look at the way the regional corporations have 
been set up is that they are supposed to pay 70 percent of 
their profits to the other 12 regional corporations through 7-I 
sharing, but as long as you are driving your overhead so high 
that there is no way that there are any profits at the end, you 
basically spend all of your money building the roads and paying 
off the loggers. So by the time it comes down to any profit 
there is none, and that equals no dividends.
    Historically, that is the way it has always been.
    The Chairman. The gentleman's time is up.
    Mr. Vento. Thank you, Mr. Chairman.
    The Chairman. I want to thank the panel. I appreciate your 
being here.
    Mr. Faleomavaega. Mr. Chairman. Mr. Chairman.
    The Chairman. Yes, go ahead. I am sorry.
    Mr. Faleomavaega. Can we go further?
    The Chairman. If you would like to go further, go further.
    Mr. Faleomavaega. I would like to. I still have some more 
questions, Mr. Chairman, I would like to raise here.
    It is my understanding, in reading the testimonies here, 
that the corporation had expended well over a million dollars, 
even $100,000 that the Forest Service had demanded that you pay 
for an environmental impact statement that has now been 
submitted, fully accepted by the supervisor, the people, the 
Forest Service in Alaska? Is this all in the books, accepted?
    Mr. Giannini. Mr. Chairman, if I may--Peter Giannini 
speaking--it is environmental documents that are--were 
prescribed by the forest supervisor. It is not an environmental 
impact statement, but it is documents that met the Forest 
Service supervisor's concern.
    This was part of--I think there has been some confusion 
here. When Mr. Blatchford said there has been no economic 
analysis, there has been no economic analysis of any 
conservation easements, because none have been proposed to it, 
none have been offered to us. No one has ever shown us the 
money.
    What there--there has been significant economic analysis of 
the proposed logging venture, and in fact the reason nothing is 
going forward now is obviously because the market is 
unacceptable.
    Somehow it is being painted that this corporation has been 
financially irresponsible. While it is true that in 1991 it was 
forced into bankruptcy by the failure of the fish canneries and 
a sawmill, the ongoing logging operations that the corporation 
has engaged in since its Chapter XI, which incidentally has 
paid its--Chugach Alaska has paid its creditors in full and is 
back to a position of profitability and strength, thanks to 
very good management by both our board and our management.
    But that being said, there has been an economic analysis 
done and there has been an environmental analysis done, and the 
real issue here is, if we could stop spending money on trips to 
Washington to try to get the access rights and on the 
environmental study, we could be much more profitable. If we 
had the easement, we could then make the decision as to whether 
this is an appropriate time to log, an appropriate time not to 
log, an appropriate time to consider----
    Mr. Faleomavaega. Could I reclaim my time? I think you are 
going a little further than what I was trying to get at.
    Is the CAC Corporation the only organization that clearly 
does timber operations? What about the other 11 regional 
corporations in Alaska? Do they also have timber operations 
currently?
    Mr. Blatchford. Mr. Chairman, responding to the 
Congressman, we do not speak for the other regional----
    Mr. Faleomavaega. No, I am just saying, do the other 11 
regional organizations have timber operations?
    Mr. Blatchford. There are logging operations, yes.
    Mr. Faleomavaega. Okay. That is all I am trying to 
ascertain.
    Since you declared bankruptcy after the Valdez spill, with 
a $900 EVOS, why is it that that the EVOS funding has not been 
utilized to help you overcome this financial disaster that you 
have--not as a result of you, but because of what the Exxon 
company had done?
    Mr. Blatchford. Mr. Chairman and Congressman, under the 
policy of the Exxon Valdez oil spill trustees' council, under 
their policy, they do not recognize people and indeed they do 
not recognize cultural activities.
    Mr. Lankard. Also, the fact that they demand fee title, and 
that was one reason that Chugach has not entertained any 
negotiations with them. And again, we have never endorsed that 
as well.
    Mr. Blatchford. Mr. Chairman, I must respond. With all due 
respect to the person sitting to the right of me, he doesn't 
have any official position with Chugach or within the Chugach 
native community. So I wonder where he got some of his factual 
basis in responding to the Congressman earlier about the 
financial analysis.
    We have not done a financial analysis of the sale because 
we are not considering any sale.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Washington.
    Mr. Inslee. Mr. Chairman, thank you for indulging me.
    Could someone show me where the road surface is, where the 
Forest Service wants an easement over the corporation's land? 
Could you just kind of generally give me an idea of where that 
is?
    Mr. Giannini. Mr. Chairman.
    Mr. Inslee. I have got the map. I don't know if you can 
show me on the board or somehow.
    Mr. Giannini. In the material that we have provided, one of 
the things is a summary of the documentation in support of the 
easement. And the very last page is a map, and on that map, on 
the far left, is a dotted line, which is the existing Copper 
River Highway.
    Mr. Inslee. Yes.
    Mr. Giannini. Then there is a--the proposed route across 
Forest Service land is shown--it is actually marked as 
``proposed corridor.'' on the right-hand side is a tract that 
says, Chugach Alaska Corporation/Carbon Mountain Tract, and so 
from the river----
    Mr. Inslee. Could I stop you just for second. From the 
intersection with the existing road, is it just the square that 
shows Chugach Village Corporation lands?
    Mr. Giannini. The Eyak village land is what is called a 17-
B easement, and there is already public access on that route. 
Then--that is actually a public easement. Then--or there is an 
agreement to relocate that easement.
    The piece that would travel across the national forest to 
our land, there is a provision in the Chugach Native Settlement 
Agreement that provides that the public and the government has 
a right of access across any road that we build.
    Then when we get to Chugach Alaska property; that is 
private property. The government has reserved various rights--
various easements across that tract, and has the right today to 
construct whatever roads it chooses across that property.
    What they are saying is that the road that we are proposing 
to build on our land may not follow those easements, and so 
they are suggesting that we now have an obligation to provide 
an additional easement without any contractual or statutory 
basis for requesting that.
    We have said that we will not give them that interest in 
land, but to the extent that we have agreed to allow access on 
the road on the Forest Service property, we will provide access 
across the road--the mainland road that we build on our 
property, at least so far as it provides access to Forest 
Service.
    Mr. Inslee. So you made some statement that the Forest 
Service reserved the right to place some easements on that 
property?
    Mr. Giannini. When the Forest Service issued interim 
conveyance--I don't believe we have final patent to these. When 
the----
    Mr. Inslee. Let me interrupt just for a second. Did the 
Forest Service have the right to decide where those easements 
were, or do you say they were already described in metes and 
bounds?
    Mr. Giannini. Actually, I believe it was BLM that 
officially was responsible for that selection, but I am certain 
the Forest Service had input in that decision.
    Mr. Inslee. So if BLM, in fact, or some Federal agency, 
reserved the right to locate some easements, couldn't they 
effectively argue that they have the right to put the easement 
right on top of wherever you were going to build your road?
    Mr. Giannini. The easement that is reserved is specifically 
described as passing through specific sections. It is a 
reservation in our patent or in our conveyance.
    Mr. Inslee. I see. Have they expressed a willingness to 
give those up in exchange for a public easement on wherever you 
put your road?
    Mr. Giannini. They have been unclear as to whether they are 
willing to or not.
    Mr. Inslee. Okay.
    Mr. Lankard, could you tell me, we are very sensitive in my 
statement about degradation of salmon spawning habitat because 
of logging roads. We have had some real tragedies in our State 
and we don't want to see that happen in yours, obviously.
    Could you tell me, do you or others question the site 
location or specifics for this road from a salmon habitat 
standpoint?
    Mr. Lankard. Well, I think that since there have been 
adjustments and the road has been moved up to the timber line, 
that I think that it is actually in a better place than where 
they originally had planned.
    But what we are more concerned with is what kind of fill 
will be required, like the very first bridge that they built 
across Clear Creek this last year in the first mile and a half 
of road, there were 11 stipulations in Title XVI, which is an 
anadromous fish spawning stream crossing, and there were at 
least five violations that we had recorded.
    So there are a number of investigations going on right now 
that, you know, show that on the very first bridge they had 
violated the Clean Water Act. So I think that that is only 
going to increase, the farther away they get from the public 
road. They have--it depends on the path that they finally 
choose, but it could cross over a couple hundred salmon 
streams.
    And then the other concern that we have is that we don't 
know what kind of resources are going to come out of that 
region. I know that there has been expression of oil and gas 
pipelines, and that was originally one of reasons why they 
wanted such a wide easement. I believe last year they wanted 
500 feet wide.
    So we just want to make sure that if this road is built, 
that the environmental document that they did in-house, that 
there is an accompanying environmental impact statement that 
mitigates any damages that could occur. That is why we would 
rather see an EIS than an in-house environmental document.
    Mr. Faleomavaega. Would the gentleman yield?
    Mr. Udall. Certainly.
    Mr. Vento. The gentleman from Utah, Mr. Udall.
    Mr. Faleomavaega. Oh, go ahead.
    Mr. Udall. I will yield to anyone.
    Mr. Faleomavaega. I believe the gentleman, Mr. Udall, does 
have the time.
    Mr. Vento. The gentleman from Utah.
    Mr. Udall. New Mexico.
    Mr. Vento. Excuse me.
    Mr. Udall. That is okay.
    Mr. Vento. I am out of practice.
    Mr. Udall. Listening to this discussion here, and looking 
at the history, it seems to me the corporation has been willing 
to sell the coal, the fee title to the coal, of which I guess 
has been purchased by some Korean companies, you have been 
willing to sell the trees and that has gone to Pacific Rim 
countries, and I would just urge you, in the strongest possible 
terms, to seriously consider a conservation easement to the 
United States.
    It seems to me that a good argument has been made that the 
corporation wins and that natives can continue their 
subsistence life. It looks like a win-win situation to me, and 
I don't know why you are not seriously considering that.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Udall. Yes.
    Mr. Faleomavaega. In my limited understanding of what 
happened here, historically, I understand that in 1907 then-
President Teddy Roosevelt declared this whole region as a 
national forest reserve out of fear that some corporate 
entities were going to go there and literally rape the 
landscape and do mining operations and all of that sort.
    What really boggles my mind is the fact that here are these 
people that have been living here for thousands of years from 
the tip of there to the 10 million acres total that is 
equivalent to the size of Connecticut and Massachusetts 
combined, and yet not knowing that the Russians claimed in some 
papers they owned all of Alaska and then it became ``Seward's 
ice box,'' becoming later a State, and yet these people, 
indigenous people living in this whole region, didn't even know 
that this was happening.
    My question really is, I just can't understand how such a 
settlement can be made of these lands, totally owned by these 
indigenous peoples are, so spotty? And why are these the worst 
areas that are given to the Chugach Nation, the way it is 
listed in the village level and the corporation level? Why 
couldn't there have been a combination of a whole reservation, 
if you will, like we do the Navajo Nation? Why so spotty like 
this?
    And it is so difficult, now that we are faced with this 
problem and we can't even get an easement to the 73,000 acres 
that has tremendous environmental value and interest.
    The Chairman. If the gentleman will yield, and I will let 
the panel answer.
    Mr. Faleomavaega. Unbelievable.
    The Chairman. Two things have happened. One, you are 
absolutely right. The Alaska native people were totally ignored 
until 1970--1968, and we started a process of--and by the way, 
we white men, we did start this process with the native leaders 
to try to solve some of the injustices--yes, driven by the oil 
line--to give them 44 million acres of land, chosen by the 
recognized groups. Chugach was one of them.
    Unfortunately, as you said, Teddy Roosevelt--and by the 
way, he did this to stop a monopoly of the Guggenheimers in the 
coal fields, and he did declare it a national forest. But 
unbeknownst to these people, this was all something done in 
Washington, DC.
    So now we come to selecting lands. The Chugach region had 
no choice but, frankly, the rooftops of mountains and glaciers. 
The Calista group, nothing, very frankly, at all because it was 
a refuge created by the Department of Interior. And I can go on 
down the line.
    It was decided by this Congress that they had a priority 
right, but even Chugach, after the Native Lands Claim 
Settlement, couldn't choose the land. They had to eventually 
sue and finally reached an agreement in 1982. That is when this 
all came from, 1982.
    That agreement was reached with the Forest Service and it 
says specifically in the law, access shall be granted from 1971 
to 1982 until 1999.
    Now, they did build the road, by the way, Mr. Lankard, 
across the great Copper River Delta.
    Mr. Lankard. The west Delta.
    The Chairman. It has been all the way through there. It has 
been one of the most productive areas. It apparently hasn't 
hurt too much because subsistence still takes on and fishing 
still takes on. It can be done.
    Now, as far as Mr. Udall, the idea of an easement, again, 
there is no value there until they get the easement access. 
Once that is made possible, they can negotiate. Right now we 
will low-ball them. That is not fair.
    Now, if the Federal Government wants to take and buy their 
land, and they say they want to sell it, give them a million 
dollars an acre. If it is worth that much, then they have a 
decision to make. That is fair, because the idea is that they 
were supposed to get this land. They are the first Americans. 
They were there.
    This was an Act of this Congress, and to have agencies like 
the Forest Service and the Department of Interior--who oppose 
the Native Lands Claims Act, by the way--suggest that it be 
vetoed, still drag their feet and not fulfill what this 
Congress has said should be done, that is my frustration.
    You may not agree with what they have done. I am not saying 
that is right or wrong, but that is their privilege, as they 
should have the right to do so because we set it up that way. 
And that is our responsibility. To go back on them now is 
wrong, and I will say again, every one of the regional 
corporations, if I have my way, when this finally gets done and 
they all get their land, which they still don't have all title 
to it, we ought to sue the Forest Service and the Department of 
Interior and the Park Service for a hundred billion dollars in 
lost revenues because they have had to fight every inch of the 
way, because they have never supported the ideas that the 
American Indians should own land.
    Mr. Faleomavaega. Mr. Chairman?
    The Chairman. Yes?
    Mr. Faleomavaega. I would like to say for the record that I 
support this legislation, period.
    The Chairman. Any other questions?
    If not, I will excuse the panel. And for the rest of you 
here, we will have the administration up to answer questions. 
For you who were not here earlier, they did not get their 
testimony to this Committee until this morning. That is a no-
no. I am tired of that. If they want to be heard, they want to 
testify, then they ought to have at least the decency to have 
testimony to us on time.
    So we will be asking them questions. Do you have any 
questions you want to ask them? You are welcome to stay. I do 
have some questions.
    This panel is excused.
    The next up will be Mr. Ron Stewart, I believe--is that 
correct--Deputy Chief of Programs and Legislation, U.S. 
Department of Agriculture, U.S. Forest Service, Washington, DC; 
accompanied by Mr. Snow, U.S. Department of Agriculture, Office 
of General Counsel; and I believe one other legal eagle, Paul 
Kirton.

 RON STEWART, DEPUTY CHIEF FOR PROGRAMS AND LEGISLATION, U.S. 
 FOREST SERVICE, U.S.DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY 
   JAMES SNOW, OFFICE OF GENERAL COUNSEL, U.S. DEPARTMENT OF 
    AGRICULTURE, AND PAUL KIRTON, SOLICITOR'S OFFICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    The Chairman. I want to welcome the witnesses before the 
Committee, and I hope you understand my frustrations about the 
delay in having testimony on time.
    The Department of Interior has a habit--it is like a drug 
disease--of never being on time. As a chairman, I don't deeply 
appreciate that at all.
    Which one of you wants to answer this first question? I 
have a series of questions, and I will go on down them.
    Isn't it true, under the 1982 CNI Settlement Agreement, it 
requires you to grant Chugach an easement and that easement is 
a real property interest?
    Mr. Stewart. That is my understanding, yes.
    The Chairman. You agreed to that?
    Mr. Stewart. Yes.
    The Chairman. Okay. Is the environmental documentation 
required under the 1982 CNI Settlement Agreement and MOU signed 
last year complete and adequate?
    Mr. Stewart. That is my understanding, that it is. Yes, we 
have accepted it.
    The Chairman. What does H.R. 2547 grant that the Secretary 
is not already required to grant?
    Mr. Stewart. The concern we have is that the 1982 
settlement agreement did provide for reciprocal access. At the 
time that that negotiation occurred, which--as you probably 
recall, I was not there, but the two people with me were 
actually engaged in that suggestion. That access was a 
significant issue for the State of Alaska, members of local 
public and both the Departments of Agriculture and Interior. As 
part of the give-and-take that came out of that settlement 
agreement, there was a desire to assure that there would be 
access to the public lands there as part of the access across 
the Forest Service lands.
    It is my understanding that the only sticky issue at this 
point in time is the resolution of that access. I heard a lot 
of discussion of that here, but there are ongoing negotiations 
to try to work that out; and my understanding is that has also 
been fairly productive, and hopefully we are very close to 
actually having an agreement.
    The Chairman. With all due respect, Mr. Stewart, I heard 
the same thing last year. I hope that if there are 
negotiations, it is in sincerity and not just--you know, my 
fear is that the longer you delay this, the more pressure, the 
people's group and the rest of the environmental groups will 
get this group to sell their land.
    Mr. Stewart. I would like an opportunity, if you would, 
please, to have Mr. Snow, who has been engaged in that on the 
part of the Forest Service in the discussions, but only to say 
it is our intent, and I am quite well aware the administration 
has made some commitments to assure granting of that.
    The Chairman. Before Mr. Snow answers, I have a question to 
ask you, Mr. Snow. I understand you had a major role in 
drafting the easement. Is that correct? And I want a yes or no.
    Mr. Snow. Yes, I had a role in it.
    The Chairman. Did you read the environmental document 
approved by the Forest Service before or when you attempted to 
draft the easement?
    Mr. Snow. I drafted that easement in consultation with my 
local counsel.
    The Chairman. Did you read the document?
    Mr. Snow. Sir, I did not have all the documentation.
    The Chairman. You did not read the document?
    Mr. Snow. I don't believe that is a correct 
characterization of the process that went on.
    The Chairman. Let's don't play games with me now. I want to 
ask you a question.
    Mr. Snow. Sir, it was not necessary for me to read the 
entirety of the environmental documentation in order to draft 
the easement.
    The Chairman. What did you read?
    Mr. Snow. Sir, all I was required to do was to draft an 
easement, which is an interest in land that incorporates the 
terms and conditions of the 1982 agreement, and that is what I 
did.
    The Chairman. Okay. The Forest Service issued a deficient 
document and called it an easement. This document is deficient 
because it ignores the environmental document. Would you not 
say that?
    Mr. Snow. I don't understand your question, sir.
    The Chairman. The question is, your issuing of the document 
ignores the environmental document that you signed off on.
    Mr. Snow. On the contrary, sir. Our document that we issued 
and that we proffered then in March incorporated, by reference, 
all the documentation that was prepared and accepted by the 
Forest Service, and it is incorporated by reference and 
specifically stated in the easement.
    The Chairman. Why did it take 45 days of waiting, after 
submission of the easement application, to issue a draft 
document that again ignores the work done by the environmental 
document?
    Mr. Snow. Forty-five days was, I think, a very prudent and 
necessary period of time in order to put together a very 
complicated legal document, and we proffered it to them and we 
got to it before the 45 days.
    The Chairman. How long have you been on this case?
    Mr. Snow. We got--I had the case given to me in January.
    The Chairman. In January. How long has the Forest Service 
had it?
    Mr. Snow. The Forest Service has been working with Chugach 
Alaska, I believe, for quite a long time.
    The Chairman. 1982.
    Mr. Snow. No, sir. It has been an off-and-on process since 
1982, and we have not had a pending application since 1982.
    The contract--and I would direct the Committee to read the 
contract, because it is very explicit on these points--requires 
that Chugach apply. Chugach did not apply formally under the 
terms of the contract until January.
    We, in fulfillment of our obligation, responded within 45 
days.
    The Chairman. Does the document you call an easement 
require Chugach Alaska Corporation to undertake additional 
worker studies that have already been performed pursuant to the 
MOU?
    Mr. Snow. It required them in three or four situations to 
do additional work that had not been done and that would have 
been required in order to complete it, but the great majority 
of the work was done.
    There are some things that Chugach, on its own initiative, 
opted not to do at the time we recommended it. So, therefore, 
those----
    The Chairman. Is this the same document that was signed off 
by the Forest Service?
    Mr. Snow. The Forest Service signed off on the adequacy of 
that which was submitted. There were some items that they 
specifically--that the Forest Service had asked for that were 
not provided, that Chugach asked to do during the construction 
phase; and those matters we agreed to allow them to fulfill 
during the construction phase, but the easement was contingent 
upon them.
    The Chairman. Can you explain the exchange of easements?
    Mr. Snow. You mean the reciprocal right of access?
    The Chairman. Exchange of easements. Have you requested an 
exchange of easements?
    Mr. Snow. Yes, we did.
    Our reading, and this is contrary to CAC's reading of the 
contract, but we think it is quite clear that the contract 
contemplated that the public would have full rights of use of 
that easement over the entirety of the road as built, to the 
extent that it provided access to public lands.
    Now, at that point, where the road leaves Federal land for 
the last time and enters back onto CAC property--we are not 
contending that the public has a right of access, but having 
been a party to the negotiations in 1982, I can tell you that 
one of the concerns of the Secretary of the Interior, Mr. Watt, 
and the Secretary of Agriculture, Mr. Block, on behalf of the 
Reagan Administration, was that the people of south central 
Alaska should have full rights of access to their public lands. 
And that was one of the major contractual provisions that we 
put into the agreement.
    The Chairman. If it is the understanding that Chugach is 
offering to allow free public use of the road on Chugach's 
private land, why do you have to have another easement?
    Mr. Snow. Well, because that is the position of the 
corporation today. The board of directors tomorrow could pass a 
resolution and block public access. Unless we have a legal 
right of access, we have no access at all because then it 
becomes access essentially at the behest of whoever is in 
control of the corporation.
    The Chairman. If I write this in the legislation that there 
will be public access, why do you need the exchange of 
easements?
    Mr. Snow. Well, right now, there is no legislation. There 
is----
    The Chairman. There is legislation before us. I am asking 
you if I put in, in fact, there will be public access, that no 
other board can change that, why do you have to have a Federal 
easement?
    Mr. Snow. Well, first of all, I would question the ability 
of this Congress to compel, without its consent, CAC to grant 
use of the----
    The Chairman. That is an argument I can have with them, but 
I am asking you a question. Why do you need the Federal 
easement recognition at this time?
    Mr. Snow. Well, again, I am not sure where your question is 
leading, other than to say----
    The Chairman. What it is leading to, if you were here 
before, it leads to another whole ball game of delaying tactics 
by the Forest Service and through outside interests that 
preclude the issuance of this access. That is what I am leading 
to.
    Mr. Snow. Well, sir, our position is they are entitled to 
access and they are entitled to an easement, and the direction 
that I have been given from all levels of the Department and 
the administration was that we are going to live up to and 
comply fully with the 1982 settlement agreement and that 
requires----
    The Chairman. Let's see, 1982 to 1999, that's--'82, that's 
10--that's 19 years, 19 years.
    Mr. Kirton, I keep seeing you shake your head. What do you 
mean it is not 19 years? I can add up. Seventeen years, 19 
years is a long time.
    Mr. Kirton. The end of 1982 to the present is 16 years.
    The Chairman. They have what?
    Mr. Kirton. The end of 1982/January of 1983, the final 
ratification by Congress, to present, is 16 years.
    The Chairman. Is that a short period of time?
    Mr. Kirton. Just the bath, I would say.
    The Chairman. Just a short bath. I see.
    Mr. Kirton. Just a bath.
    The Chairman. It is easy for people to do that, Mr. 
Stewart, Mr. Snow, Mr. Kirton. You are dealing with people's 
lives here and a right of law.
    Does anybody disagree with that?
    Mr. Stewart. No, Mr. Chairman, but if I might just say, 
almost anything dealing with Alaska becomes controversial.
    Of course, this particular area, the Copper River Delta, is 
an area that was even specifically dealt with in ANILCA, so 
there is a significant amount of interest. So I think 
everybody's concern is, we want to do whatever we do there.
    The Chairman. But, Mr. Stewart, with all due respect, that 
is not up to you. The law says they shall have access, and by 
nonaction you are depriving them of that access. You are 
depriving them of what this Congress said was theirs.
    Is that correct?
    Mr. Stewart. My understanding is, we have not had a formal 
request for the access, the paperwork to request that, until--
is that January of this year, we processed that, we came back 
with an agreement? There were some differences in the 
agreement, and we are continuing to negotiate with the parties, 
believing that everybody is negotiating in good faith, and it 
should be possible to reach agreement.
    The Chairman. Do you have any idea of time frame?
    Mr. Snow. Well, we were ready--we believe that we offered 
an adequate easement in March.
    The Chairman. Because you see--you want a Federal easement, 
they are willing to give public access. Why do you need that 
Federal easement, if, in fact, it is guaranteed in law that 
they can't renege on what they said they can give?
    Mr. Snow. I think I have to reserve judgment on whatever 
language that might be proffered by the Committee, but the 
bottom line is, we feel that the public has a right of access.
    The Chairman. They do, too.
    Mr. Snow. Pardon?
    The Chairman. They do, too.
    Mr. Snow. Okay.
    The Chairman. Okay. So what I want to suggest is--which is 
what I suggested last year and why I really would not like to 
waste my afternoon today talking to you guys, very frankly, 
because you told me last year that this would be accomplished. 
And you did--maybe you weren't sitting in front of me, I 
forgot, very rarely I do that, but it was said this would be 
accomplished. I am going to suggest, all right, now I have got 
you at the table, and I have the other people that testified, I 
am willing to sit down with all three of you and the three 
people who were before the Committee today, and we will arrive 
at a decision. What is wrong with that proposal?
    Mr. Snow. Well, sir, I spoke with Mr. Giannini earlier, and 
we have I believe very successfully negotiated 99 percent of 
this. I think that there are options that we are currently 
addressing for dealing with this access question. I think that 
we are perfectly able and we certainly have the motivation to 
complete it. I am not sure that action by the Committee would 
be necessary, because I believe it could be done by 
negotiation.
    The Chairman. My problem is and the reason we are here is 
you haven't done it. I hear from one side, and I hear from 
another side. I am suggesting it is a good negotiating 
position. I will be in the room, and we will get everybody to 
sit down, and when we get done, we will sign a packet of 
agreement. Then I don't have to move this bill. Otherwise, I am 
going to move the bill, and I will pass it. You guys may veto 
it, but it again shows your colors if you do so.
    I haven't talked to Chugach about this at all, by the way, 
so if they are in the room I am sure they are very, very 
concerned right now. But I am just suggesting--I keep hearing 
from both sides, we are negotiating in good faith, but you are 
not because we have not reached a decision yet.
    Mr. Stewart. Mr. Chairman, what I hear you offering is lend 
your weight to keeping the feet to the fire on all parties to 
try and reach agreement?
    The Chairman. All parties feet to the fire to try to solve 
this problem, so they get their just due. And if you, in fact, 
think you have some concern, I can address those concerns also. 
But I do not want this constant 18, 17, 16 years, 1971 till 
now, 1992 till now, to continue, because I don't see you coming 
to the conclusion.
    I think there will be somebody outside--Mr. Stewart, all 
due respect, will blow on somebody's ear and say we can't do 
that, this is a sacred area, forget the people, we have got to 
protect it. I mean, I am afraid that is going to happen. And 
you may be caught in the middle. I don't know. But I know this, 
that the regional people have worked very hard to get this 
done, and they can't get anywhere. They have worked very hard, 
and I won't take that away from them. But for some reason it is 
a constant stalemate from down here.
    Mr. Stewart. I am not in a position--I would like to bring 
your proposal back to the administration and see if we can work 
something out. What I would be concerned about is, is in the 
meantime holding out the prospect of trying to resolve this 
legislatively, which could take a significant amount of time, 
and in the meantime have the people walk away from the table 
and not continue what have been fairly productive discussions.
    The Chairman. Well, again, I don't think you have to worry 
about that too much, Mr. Stewart. For one reason, you know, if 
I don't want this bill to move, it is not going to move. If I 
do want it to move, it is going to move. That is the threat to 
you, and that is the suggestion of the other side of the aisle 
that we try to solve these problems. I think they have worked 
very well in good faith. You say you have worked well in good 
faith. I hear from both sides, but out of it comes nothing.
    I waited a whole year before I introduced this bill 
hoping--by the way, it was supposed to be last January, we were 
told last December, and now it is the--whatever it is in July, 
28th of July, and so I want--this is one of the projects that I 
have a great seriousness about completing about the end of this 
year. So if you want to go back and suggest what I am 
suggesting and, in the meantime I will talk to the people from 
Chugach and see if they are willing to sit down. They are 
sitting in the back room--I haven't talked to them about this. 
This is something I want to get done. I don't want to be 
sitting here next year finding out why it wasn't solved. Okay?
    Mr. Stewart. I think we all want to solve this. They do 
have the access right. It is our intent to grant that to them. 
As I said, there has been one--at least one sticking point, and 
if there is a way to break that logjam and get people to the 
table, I am all for it.
    The Chairman. All right, thank you.
    The gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I am encouraged by the 
statements made by the gentleman before us on the panel. We 
have completed about 99 percent of the negotiations at this 
point in time, as I hear, Mr. Snow. Where is that 1 percent 
left that seems to be bothersome to the agencies?
    Mr. Snow. I think perhaps putting a percentage on it is not 
correct, because that assumes that 1 percent is not important.
    Mr. Faleomavaega. Obviously, it is very important. So that 
is why I am asking.
    Mr. Snow. That is right.
    Mr. Faleomavaega. Where is that 1 percent that is causing 
all of those problems?
    Mr. Snow. I think that we have--as a result of a meeting 
that we had in June, we made extraordinary progress, I believe, 
not only in coming to agreement on most of the terms and 
conditions of the proposed access but I think in our 
cooperative regulations between the Forest Service and the 
Corporation. The remaining issue concerns this public access, I 
believe, that Chugach has some very legitimate concerns about 
the effect that granting an interest in land has on 
federalizing. I believe it is legitimate. But I also believe 
there are legitimate concerns that we have with respect to the 
public's rights under this agreement.
    Mr. Faleomavaega. Mr. Snow, if I may, I would like to quote 
you a statement by Ms. Buretta, chairman of the Corporation, 
and I quote: In a meeting with the Forest Service in June, in a 
failed attempt to negotiate an acceptable easement document, 
the government lawyer--and I would like to know who the 
government lawyer is--said, and I quote, we don't want you to 
have this easement. I suggested that once an easement is 
granted, Chugach should begin discussing a sale or a trade of 
our land in Carbon Mountain in Prince William Sound.
    Is that an accurate statement by Ms. Buretta?
    Mr. Snow. With all due respect to Ms. Buretta, who I have a 
great deal of respect for, I don't believe that was a correct 
representation.
    I was the government lawyer at that meeting. I made no such 
statement. We have consistently said that at some point that 
Chugach gets its easement, that if the Corporation, acting at 
the behest of its shareholders, decides it wants to convey an 
interest in land, we would be happy to talk about it.
    We do not, however, use this as a lever. They have a right 
to that access. They are going to get the access. When they get 
it, if they want to sell, they can sell it to us.
    Mr. Faleomavaega. Are you fully satisfied that the counsels 
and all the responsible people do and have all expressed the 
interest that this is the policy of the direction that the CAC 
Corporation wishes to pursue with the Forest Service? You sound 
like you are waiting for the Corporation to say, unless we hear 
from the corporate membership of the shareholders, the majority 
in agreement they are going to negotiate, is that what you 
mean?
    Mr. Snow. What I am addressing, sir, is the contention that 
we heard frequently this afternoon that somehow the denial of 
this access is predicated on a strategy to force them to sell 
an interest in the land. We have, on occasion, offered Chugach 
the opportunity to sell or convey or to exchange that 
opportunity. Chugach has told us they are not interested in 
doing so, at least until they get their easement. There is 
legitimate concern that the property would be valued without 
access.
    I would make a point that it would be valued, as if it did 
have access, because it has, as a matter of law and contract, a 
right of access, so there is no way that the government under 
the uniform appraisal standards could ever devalue that 
property for the lack of it. But the bottom line is, they have 
a right to access. If they want to develop that access, that is 
their prerogative. Once they get it, or if they decide that 
they want to sell or convey an interest in that property, that 
is also their prerogative. And we are hoping for consideration 
of that.
    Mr. Faleomavaega. Are you satisfied with the supervisors' 
evaluation, given the fact that the Forest Service had also 
requested that an environmental study was made costing this 
corporation about a million dollars just to do this 
requirement? Is this an agreement with your regulatory 
administration of this part of the contract, Mr. Stewart?
    Mr. Stewart. It is not----
    Mr. Faleomavaega. This Corporation paid over a million 
dollars to comply with your requirements, Federal requirements. 
Is there any other aspect of the contract agreement that they 
are short of in terms of why this thing has dragged on now for 
so long?
    Mr. Stewart. I think what was mentioned is, in the 1982 
agreement, the forest supervisor was given the prerogative to 
determine what environmental documents would be needed. But not 
a NEPA process, that was part of the trade-off. And he 
specified that. Those were agreed to in a memorandum of 
understanding between the forest and Chugach Alaska. And my 
understanding is and--which I had just heard explained a minute 
ago, that we have accepted everything they have given to date. 
There are a couple of things that were not done.
    But at this point it did not prevent us from going forward 
with a draft proposal to grant the easement. In this issue of 
them having to pay for the environmental work and so forth, 
there is a significant precedent for that, when there is a for-
profit corporation proposing activities that would impact 
Federal lands, to have the proponent actually pay for some or 
all of the environmental documentation.
    There is--unfortunately, one of the problems with that is 
the perception then, in the case where NEPA is concerned, that 
there is an implied agreement if they spend that, they are 
going to get a favorable decision, and you can't always 
guarantee that. And in this case there was no NEPA. And, in 
fact, the information has been accepted; and we are prepared to 
go ahead.
    Mr. Faleomavaega. One more question, Mr. Chairman. I know 
my time is over.
    Mr. Stewart, what kind of a timetable are you looking at in 
terms of months that you think that we can wrap this thing up 
as far as negotiations are concerned? Again looking at that 1 
percent that seems to be hanging over.
    Mr. Stewart. One percent is always the sticking point. And 
my sense is we would like to resolve it as quickly as possible.
    Mr. Chairman, I was, frankly, told by the administration 
that they wanted to make sure that we did convey the message 
that we planned to grant that; and, you know, anything that 
brings the people to the table and gets this resolved as 
quickly as possible is good.
    Mr. Faleomavaega. Mr. Stewart, if I may, you know, I heard 
President Clinton being the compassionate President of the 
First Americans and Native American rights and the issues and 
the problems that we have had socially, economically. I really 
like to hope and take in good faith that the President means 
what he said and that, as you and your stewardship and members 
of this administration, that we follow through on this and, 
hopefully, that there is resolution to the problem.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. And again I want to stress, Mr. 
Stewart, that the sticking point is that 1 percent can be 
solved very easily. If we can get an agreement from Chugach and 
an agreement from you that the public access is guaranteed by 
law, and, you know, that is all I have to do, and I will move 
this bill just with that provision, and there may be a couple 
other things that you would like, and it can become a reality.
    I just--again, I am somebody that doesn't want to see this 
happen. I can tell you, in a small area, especially with a 
small group of shareholders, the lure of big dollars can 
sometimes do great harm. And one thing I don't want to do, as 
long as I sit in this chair, is to have the American, the 
Alaskan Natives make a settlement for 44 million acres of land 
and not have any land.
    We can talk about subsistence and all the other good things 
you want, but that was a deal that we made, this Congress made. 
And to have us deny and take and through attrition deprive them 
of their land, I think is inappropriate.
    The gentleman from Washington state, Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chairman.
    Can I offer for the record a statement from the National 
Wildlife Federation? May I make that part of the record with 
your indulgence?
    The Chairman. Not until I read it. After I read it, I will 
sure it is all right. I am not particularly fond of the 
National Wildlife Foundation right now.
    Mr. Inslee. I understand that. But I understand you are 
against censorship too, Mr. Chairman, so hopefully you will 
permit that.
    The Chairman. I will read it, and if it is permissible----
    Mr. Inslee. They will capitalize the name Young in here, 
too. I will make sure that they do that.
    Has anyone asserted that legally there are additional 
process requirements for design of the road, for instance, NEPA 
or some other Federal law? Has anyone argued that any of the 
Federal agencies are required legally to go through any 
additional process than they already have? Has anybody 
suggested that to you?
    Mr. Snow. Well, the contract requires, as it necessarily 
must, that they comply with all applicable State and Federal 
laws, rules and regulations. I don't think it surprises anyone 
here that to do anything can bring up a panoply of different 
laws. I know questions have been raised with regard to section 
404 of the Clean Water Act, for example. Interior and 
Agriculture have no jurisdiction over that particular section 
of the law. So if you are asking are there other legal 
requirements that Chugach may have to fulfill in order to 
construct this road, I would say the answer is probably yes.
    Mr. Inslee. For instance, I mean, do I understand that the 
ANSCA has essentially taken the position that NEPA does not 
apply at least to granting the access?
    Mr. Snow. Well, the issue of NEPA was addressed in the 1982 
agreement. And in that regard, the 1982 agreement was intended 
to effect the conveyance of entitlements to Chugach Alaska 
Corporation; and under section 910 of ANILCA, those are exempt 
from the preparation of environmental impact statements.
    So there was an effort by the parties in 1982, and we agree 
with it today, that section 910 should apply to this situation. 
Now, does that mean that will be upheld in court? That will be 
a question that could be the subject of litigation, but we 
certainly, I think, agree with CAC with regard to the 
applicability of section 910.
    Mr. Inslee. Let me ask you kind of a broad question. This 
is extremely sensitive ground. It seems to me a significant 
portion of this would cross or be very close to wetlands, as I 
understand it. What can you tell us about how high a standard 
of design has been contemplated by the Corporation and the 
agencies relative to other Federal lands and other criteria for 
road building?
    Mr. Stewart. This road, I think, is going to be very 
environmentally sensitive. I think you heard that from one of 
the members of the local community. And it will meet best 
management practices as established by the State and by the 
Forest Service. It has used the Forest Service standards over 
Forest Service roads. We are certainly very sensitive to the 
watershed and so is the Chugach Alaska. So I think that those 
concerns will be taken care of, and it will meet best 
management practices standards.
    Mr. Inslee. Do I understand there was some controversy 
already on some construction? Someone told me--someone alluded 
to some difficulty in the first stage of construction. Has the 
State of Alaska challenged this at all?
    Mr. Snow. I do know of some controversy. I don't know of 
what the status is.
    Mr. Stewart. There were some demonstrations during some of 
the early construction phase, but I am not sure that it was--
necessarily there have been alleged or proof of any violations 
of anything.
    Mr. Inslee. As far as the agency's desire for Federal 
easement on the deeded property, to the extent you can, can you 
tell us what--is that based on some statute that you believe is 
required? Is it simply an administrative position? Do you know 
what basis should we have in evaluating whether we should or 
should not have a Federal deeded access on fee title property?
    Mr. Snow. We believe that the contract read as a whole 
contemplated that the public would have use of the road. We 
reserved the Kushtaka Lake easement in the contract at the time 
when the proposed delineation of the road was to be on that 
particular side of the lake. So the intent was to have the 
reservation of the right of way be congruent or identical to 
where the planned route was.
    That at the time was predicated on a road that was for coal 
extraction. Now they have changed their intent to have the road 
be for timber extraction, and that necessarily requires them to 
put it over a different portion of their property. Where we do 
not have a reserved easement, I guess at the time, had we been 
clairvoyant, we might have also reserved an additional public 
easement over the proposed route.
    Mr. Inslee. With your indulgence, Mr. Chair, the 
Corporation's concern is, if there is an easement, it will just 
simply open the door to untold further barriers to ultimate 
construction, if necessary. Is that an accurate concern? And, 
if so, what can be done about that?
    Mr. Snow. I can't--whenever you are dealing with the myriad 
of conflicting environmental laws, rules and regulations, if I 
were a private developer, I think I would be concerned about 
any situation that could unravel or get more complicated than 
anticipated.
    So if you are asking me, is the Corporation being 
unreasonable in their concerns; if I were their lawyer, I would 
say they are not. On the other hand, from the government's 
perspective, all we are trying to do is enforce the 1982 
agreement, and that is subject, by its own terms, to all 
applicable rules and regulations and laws. Since we can't 
change that by contract, we just have to let the chips fall 
where they may.
    Mr. Inslee. For whatever it is worth, from what little I 
know of this, it sounds to me like your interpretation is 
probably correct, and I hope that your negotiations under 
whatever auspices reach a conclusion. And I also hope that that 
ultimately leaves the Corporation to conclude in the exercise 
of their sovereignty and best interests that they will 
entertain offers for this property, and I would hope that I can 
work with anyone interested in this subject to ultimately 
respect the dignity and sovereignty of this Corporation and 
also reach that conclusion.
    Thank you very much.
    The Chairman. Thank you.
    And, Mr. Stewart, I again want to get a response back from 
you. I am glad to hear Mr. Snow say that they do have a 
legitimate concern about becoming a Federal easement and body 
in the water. You said you thought section 910, it is a law. 
Now, how can anyone challenge that? I mean, they can challenge 
it, but would you be willing to defend that as a lawyer?
    Mr. Snow. The position that we have taken is that the 1982 
agreement is an extension of Chugach's entitlement under the 
Native Claims Settlement Act, and to the extent that the 
section 910 of ANILCA exempts conveyances to native 
corporations under their entitlements from NEPA requirements, 
then we believe that the '82 agreement is correct. And we will 
defend that.
    The Chairman. Thank you. The term here is conveyances are 
different than easement, but it says easement determinations. 
So 910 as defined in ANILCA precludes anyone from filing a 
lawsuit, or they can do it, but it would be heavily defended, 
it could be heavily defended.
    What I am looking for it, if necessary, when I reach this 
agreement, if I do have to move some legislation after we have 
a sit-down meeting, I want to make sure we write it so that 
other parties can't delay this process. They can't turn around 
and sue the Forest Service for not doing something, further 
delaying this access question. You know, the delay tactic is 
what a lot of people use in this arena in these days, and that 
is what I am trying to look for.
    Mr. Inslee. Mr. Chair, could you yield for just one moment?
    The Chairman. Yes.
    Mr. Inslee. I just--apparently, there is some suggestion 
that the original language that excluded coverage of NEPA 
applied to the deeding process of the property itself. I have 
been told that there is potentially an argument though that 
that exclusion did not cover granting of easements, of access 
easements and I just--some have argued that, I just wanted to 
point that out, the agencies have not obviously agreed with 
that interpretation. But it seems to me that there is some 
argument that folks interested in this issue ought to be 
somewhat concerned about.
    The Chairman. The National Environmental Policy Act of 
1969, 83 statute 852, shall not construed in whole or in part 
as requiring preparation or submission of an environmental 
impact statement for withdrawals, conveyances, regulations, 
orders and easement determinations or other actions which would 
lead to the issuance of conveyance to the native and native 
corporations pursuant to the Alaskan Native Claims Settlement 
Act, and it sounds good.
    I am not a lawyer. I just want to make sure that there is 
no open doors, and if there is any open doors there, Mr. Snow, 
I would like to know it so that we can preclude any delaying 
tactic once you agree that this easement shall take place. I 
don't know how many times I have seen agencies sued by other 
interest groups who supposedly haven't done the job as you 
should do it, and that again delays the process. I want to look 
at that. That will be part of our discussion. Come back to me 
with your recommendations.
    If there are no other questions, I excuse the panel. I do 
thank you for your patience, and I hope you take my criticism 
in good faith. Next time, have your testimony here at least 2 
days prior to the actual hearing.
    This Committee is adjourned.
    [Whereupon, at 1:30 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T0581.021
    
    [GRAPHIC] [TIFF OMITTED] T0581.022
    
    [GRAPHIC] [TIFF OMITTED] T0581.023
    
    [GRAPHIC] [TIFF OMITTED] T0581.024
    
    [GRAPHIC] [TIFF OMITTED] T0581.025
    
    [GRAPHIC] [TIFF OMITTED] T0581.026
    
    [GRAPHIC] [TIFF OMITTED] T0581.027
    
    [GRAPHIC] [TIFF OMITTED] T0581.028
    
    [GRAPHIC] [TIFF OMITTED] T0581.029
    
    [GRAPHIC] [TIFF OMITTED] T0581.030
    
    [GRAPHIC] [TIFF OMITTED] T0581.031
    
    [GRAPHIC] [TIFF OMITTED] T0581.032
    
    [GRAPHIC] [TIFF OMITTED] T0581.033
    
    [GRAPHIC] [TIFF OMITTED] T0581.034
    
    [GRAPHIC] [TIFF OMITTED] T0581.035
    
    [GRAPHIC] [TIFF OMITTED] T0581.036
    
    [GRAPHIC] [TIFF OMITTED] T0581.037
    
    [GRAPHIC] [TIFF OMITTED] T0581.038
    
    [GRAPHIC] [TIFF OMITTED] T0581.039
    
    [GRAPHIC] [TIFF OMITTED] T0581.040
    
    [GRAPHIC] [TIFF OMITTED] T0581.041
    
    [GRAPHIC] [TIFF OMITTED] T0581.042
    

</pre></body></html>
